<html>
<title> - THE FORT HOOD ATTACK: A PRELIMINARY ASSESSMENT</title>
<body><pre>[Senate Hearing 111-810]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  

 
56-145 PDF

2011

                                                        S. Hrg. 111-810

             THE FORT HOOD ATTACK: A PRELIMINARY ASSESSMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
                      Gordon N. Lederman, Counsel
            Christian J. Beckner, Professional Staff Member
              Seamus A. Hughes, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Ivy A. Johnson, Minority Senior Counsel
                    John K. Grant, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Carper...............................................    26
    Senator McCain...............................................    29
    Senator Ensing...............................................    32
    Senator Levin................................................    34
Prepared statements:
    Senator Lieberman............................................    43
    Senator Collins..............................................    45
    Senator McCaskill............................................    47
    Senator Burris...............................................    48
    Senator Bennett..............................................    49

                               WITNESSES
                      Thursday, November 19, 2009

General John M. Keane, USA, Retired, Former Vice Chief of Staff 
  of the U.S. Army...............................................     5
Frances Fragos Townsend, Former Assistant to President George W. 
  Bush for Homeland Security and Counterterrorism................     7
Mitchell D. Silber, Director of Intelligence Analysis, New York 
  City Police Department.........................................    11
Hon. Juan Carlos Zarate, Senior Adviser, Center for Strategic and 
  International Studies; and Former Deputy National Security 
  Advisor for Combating Terrorism................................    15
Brian Michael Jenkins, Senior Adviser, RAND Corporation..........    20

                     Alphabetical List of Witnesses

Jenkins, Brian Michael:
    Testimony....................................................    20
    Prepared statement...........................................    72
Keane, General John M., USA, Retired:
    Testimony....................................................     5
    Prepared statement...........................................    50
Silber, Mitchell D.:
    Testimony....................................................    11
    Prepared statement...........................................    54
Townsend, Frances Fragos:
    Testimony....................................................     7
Zarate, Hon. Juan Carlos:
    Testimony....................................................    15
    Prepared statement...........................................    58

                                APPENDIX

Statement submitted for the Record from Alejandro J. Beutel, 
  Government Liaison, Muslim Public Affairs Council (MPAC), 
  November 18, 2009, with attached report and handbook...........    77

 
             THE FORT HOOD ATTACK: A PRELIMINARY ASSESSMENT

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Carper, Pryor, 
McCaskill, Collins, McCain, Ensign, and Graham.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. This 
morning, our Committee begins an investigation as serious and 
consequential as any it has ever undertaken. An American 
soldier, Major Nidal Malik Hasan, has been charged with killing 
12 of his fellow soldiers and one civilian on an American 
military base in Texas in what I believe, based on available 
evidence, was a terrorist attack.
    The purpose of this Committee's investigation is to 
determine whether that attack could have been prevented, 
whether the Federal agencies and employees involved missed 
signals or failed to connect dots in a way that enabled Major 
Hasan to carry out his deadly attack. If we find such errors or 
negligence, we will make recommendations to guarantee as best 
we can that they never occur again. That is our purpose here.
    We are conducting this investigation because we believe it 
is our responsibility to do so according to law and Senate 
rules. We are both the Homeland Security Committee and, over 
the long term, the Governmental Affairs Committee, which under 
the rules has a special responsibility to conduct oversight of 
Executive Branch actions, particularly when, as in this case, 
there are questions about those actions. We know it will be 
very difficult to fulfill our Committee's responsibility 
without the cooperation of the Executive Branch.
    Yesterday, I want to report, I spoke with Secretary of 
Defense Robert Gates and Attorney General Eric Holder and asked 
their cooperation in allowing the bipartisan staff of this 
Committee to interview relevant individuals in their 
Departments and obtain relevant documents as part of this 
investigation of the murders at Fort Hood, Texas. Secretary 
Gates and Attorney General Holder both said they respected our 
authority to conduct such an investigation and wanted to work 
out an understanding in which they could cooperate so long as 
our investigation did not hamper or compromise the criminal 
investigation and prosecution of the accused murderer Major 
Hasan.
    I assured them that our Committee understood and respected 
the difference between their criminal investigation and our 
congressional investigation. Their criminal investigation is to 
bring an accused to justice. Our congressional investigation is 
to learn whether the Federal Government or any of its employees 
could have acted in a way that would have prevented these 
murders from occurring. Their investigation in one sense looks 
backward and is punitive; ours looks forward and is preventive.
    I am optimistic that we will work out a way for both 
investigations to proceed without compromising either. Our 
staffs will be meeting with representatives of the Departments 
of Justice and Defense very soon to try to work out ground 
rules for both investigations without interfering with each 
other.
    But I can say that I am encouraged and appreciative that 
Senator Collins and I, and our top-level staff, have received 
one classified briefing on Major Hasan's case and will soon 
receive another and have been given access to some very 
relevant classified documents relating to this matter. So we 
are off to a good, cooperative start. And we are going to be 
insistent about this because it really is our responsibility to 
do so.
    At the conclusion of our investigation, we will issue a 
report and recommendations. I want to make clear this morning 
that we intend to carry out this investigation with respect for 
the thousands of Muslim-Americans who are serving in the 
American military with honor and the millions of other 
patriotic, law-abiding Muslims who live in our country. But we 
do no favor to all of our fellow Americans who are Muslim by 
ignoring real evidence that a small number of their community 
have, in fact, become violent Islamists and extremists.
    It seems to me here at the outset, and based on what we 
know now, that there are three basic areas of importance in 
which our Committee in this investigation will want to gather 
facts and draw conclusions.
    First, if, as seems to be the case, there were colleagues 
of Major Hasan in the U.S. Army who heard him say things or 
watched him do things that raised concerns in their minds about 
his mental stability and/or his political extremism, the 
question is: Were those concerns conveyed up the chain of 
command? And were they recorded anywhere in Major Hasan's 
personnel files? And did the Army do anything in response to 
those concerns?
    Second, what information did the Joint Terrorism Task 
Forces (JTTF) headed by the Federal Bureau of Investigation 
(FBI) have about Major Hasan, including transcripts of e-mails 
which he had with a subject of investigation that the FBI 
acknowledged publicly it had in its possession? Acknowledgment 
came last week. What judgments were made about those e-mails? 
Was any attempt made to investigate Major Hasan further after 
his e-mail traffic with the subject of an ongoing Joint 
Terrorism Task Force investigation was intercepted?
    And, third, was the information which the Joint Terrorism 
Task Force had on Major Hasan shared with anyone in the U.S. 
Army, the Department of Defense, or anyone else in our 
government?
    Those to me are three central questions, though by no means 
all the questions, we will pursue painstakingly and answer as 
completely as we can before we reach conclusions and make 
recommendations.
    This morning, we are really grateful to have with us to 
help us consider both those questions and others a very 
experienced and thoughtful panel of witnesses, with experience 
in terrorism, counterterrorism, law enforcement, and the 
military. We have asked our witnesses to give us their first 
reactions to what we know of the murders at Fort Hood and to 
what we know of the accused murderer, Major Hasan, based on the 
publicly available evidence. I also hope that they will offer 
us their advice about what other questions our investigation 
should raise regarding the focus of our inquiry, which is the 
conduct of employees of the Department of Justice, the 
Department of Defense, or any other Federal agency or 
department.
    I really want to thank the witnesses for being here, and I 
look forward to your testimony, which I am confident will get 
this Committee's investigation off to exactly the right start.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, let me begin this morning by saluting you for 
your leadership and for your courage in proceeding with this 
investigation and these hearings. I can think of no more 
important task for this Committee to undertake.
    In investigating the September 11, 2001, terrorist attacks, 
the 9/11 Commission led by Tom Kean and Lee Hamilton discovered 
vital information scattered throughout the government, confined 
by agency silos, that might have prevented the deaths and 
destruction of that terrible day if only the dots had been 
connected.
    In the wake of the mass murder at Fort Hood, we once again 
confront a troubling question: Was this another failure to 
connect the dots?
    Much has been done since September 11, 2001, to respond to 
the failures exposed by those attacks. We created the National 
Counterterrorism Center (NCTC), additional Joint Terrorism Task 
Forces, and fusion centers. We revised information-sharing 
policies and promoted greater cooperation among intelligence 
agencies and law enforcement. And the results have been 
significant. Terrorist plots, both at home and abroad, have 
been thwarted. The recent arrest of Najibullah Zazi 
demonstrates the tremendous benefits of information sharing and 
joint efforts by the NCTC and other intelligence agencies as 
well as Federal, State, and local law enforcement.
    But the shootings at Fort Hood may indicate that 
communications failures and poor judgment calls can defeat the 
systems intended to ensure that vital information is shared to 
protect our country and its citizens. This case also raises 
questions about whether or not restrictive rules have a 
chilling effect on the legitimate dissemination of information, 
making it too difficult to connect the dots that would have 
allowed a clear picture of the threat to emerge. These are the 
overarching questions that we will explore with our expert 
witnesses today.
    Our ongoing investigation will also seek answers to 
questions specific to the Fort Hood case. For example, how did 
our intelligence community and law enforcement agencies handle 
intercepted communications between Major Hasan and a radical 
cleric who was a known al-Qaeda associate? Did they contact 
anyone in Major Hasan's chain of command to relay concerns? Did 
they seek to interview Major Hasan himself?
    When Major Hasan reportedly began to openly question the 
oath that he had taken to support and defend the Constitution 
of the United States, did anyone in his military chain of 
command intervene? When Major Hasan in his presentation at 
Walter Reed in 2007 recommended that the Department of Defense 
allow ``Muslim soldiers the option of being released as 
conscientious objectors to increase troop morale and decrease 
adverse events,'' did his colleagues and superior officers view 
this statement as a red flag? Were numerous warning signs 
ignored because the Army faces a severe shortage of 
psychiatrists and because the Army was concerned, as the Chief 
of Staff has subsequently put it, about a backlash against 
Muslim soldiers?
    These are all troubling questions that we will seek to 
answer.
    For nearly 4 years, this Committee has been investigating 
the threat of homegrown terrorism. We have explored 
radicalization in our prisons, the cycle of violent 
radicalization, and how the Internet can act as a virtual 
terrorist training camp. We have warned that individuals within 
the United States can be inspired by al-Qaeda's violent 
ideology to plan and execute attacks even if they do not 
receive any direct orders from al-Qaeda to do so. And we have 
learned of the difficulty of detecting lone-wolf terrorists.
    To prevent future homegrown terrorist attacks, we must 
better understand why law enforcement, intelligence agencies, 
and our military personnel system may have failed in this case. 
Major Hasan's attack targeted innocent civilians and soldiers, 
regardless of their religious faith. The patriotic soldiers and 
citizens of all faiths who were injured and killed, not on a 
foreign battleground but, rather, on what should have been safe 
and secure American territory, deserve a thorough 
investigation.
    With so many questions still swirling around this heinous 
attack, it is important for our Nation to understand what 
happened so that we may work to prevent future incidents. We 
owe that to our troops, to their families and communities, and 
to all the American people.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that excellent opening statement.
    We will now go to the witnesses and begin with Jack Keane, 
retired General of the U.S. Army, former Vice Chief of Staff of 
the Army. We are honored to have him here, a decorated American 
soldier, who in particular has relevant experience here about 
which I hope General Keane will testify. He was commander of 
the base at Fort Bragg right after a soldier with white 
extremist views was involved in the murder of an African-
American couple. That experience I think informs his view of 
this incident, and, of course, we would welcome his reflections 
on that and the broader issue of extremism in the military and 
how we hope the Army has handled this situation.
    General Keane, it is a great honor to have you here, and we 
welcome your testimony at this time.

  TESTIMONY OF GENERAL JOHN M. KEANE, USA, RETIRED,\1\ FORMER 
              VICE CHIEF OF STAFF OF THE U.S. ARMY

    General Keane. Thank you, Mr. Chairman, Senator Collins, 
and Members of the Committee. I truly appreciate you inviting 
me here to testify this morning on a subject of such national 
importance which directly affects the security of the American 
people and in this case, equally or more important, our 
soldiers and their families.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Keane appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    How painfully and devastatingly ironic that our soldiers 
were gunned down at Fort Hood while preparing to deploy 
overseas to fight jihadist extremism. As we are rapidly 
becoming aware, the preliminary reports suggest that Major 
Hasan himself is a jihadist extremist as he indicated during 
the act of shooting our soldiers by crying out the jihadist 
refrain, ``Allahu akbar.'' It appears likely that Major Hasan's 
targets and his radical beliefs are directly related as he 
chose to kill those who were destined to fight jihadist 
extremism.
    We all welcome the investigations that the Army, the 
Department of Defense (DOD), the Federal Bureau of 
Investigation, other agencies of government, and this Congress 
are conducting to determine who was Major Hasan; what were the 
patterns of his behavior and attitude; what did we know about 
what appears to be his extremist beliefs; how did we share that 
information, and what actions did we take or fail to take as a 
result; and, most definitely, what must we do to prevent such 
incidents in the future?
    The Department of Defense has a longstanding policy of 
intolerance for organizations, practices, or activities that 
are discriminatory or extremist in nature. This policy was 
updated in 1986 as a result of service member participation in 
supremacist activities and again in 1996 after two Army 
soldiers committed two racially motivated murders at Fort 
Bragg, North Carolina, resulting in the death of two African-
Americans and prompting a DOD review of the 1986 policy and a 
subsequent revision in 1996. In fact, the Army issued a 
pamphlet titled ``Extremist Activities'' as a result of that 
incident.
    I took command of Fort Bragg and the 18th Airborne Corps 
weeks after that incident occurred, and there was much that we 
learned that eventually became Army policy. First and foremost, 
we were tolerating racially motivated skinheads who were in our 
units at Fort Bragg. When extremism occurs in a unit, there is 
a natural tendency for soldiers to pull away from it because it 
is so disturbing to their beliefs and to the beliefs of the 
Army. As such, it can often polarize a unit and directly affect 
its cohesion, morale, and capability to perform at a very high 
standard.
    What we found at Fort Bragg is that our policies were not 
clear in identifying what extremist behavior was--in this case, 
tattoos, specific dress, racial rhetoric, Nazi symbols, etc. As 
a result, racial extremists were allowed to exist in our units. 
Twenty-one soldiers were eventually eliminated from the service 
for exhibiting such behavior--unfortunately, all after the 
racially motivated murders were committed. Two soldiers were 
tried and convicted for these murders.
    The Army investigation determined that we needed to update 
our policies and, equally important, educate Army soldiers and 
leaders on the patterns of behavior and signs and symbols of 
racially motivated extremism. Those policies require soldiers 
and leaders to identify such behavior and to report it so that 
commanders can take appropriate action.
    Commanders' options are numerous, from counseling, 
efficiency reporting, Uniform Code of Military Justice (UCMJ) 
or legal actions, and involuntary separation. Our commanders 
then and now have full authority by Army policy to ``prohibit 
military personnel from engaging in or participating in 
activities that the commander determines will adversely affect 
good order and discipline.''
    I suspect strongly that after we conduct these 
investigations, we will find that our policies will need 
revision again to account for the specific behavior and 
attitudes as expressed by radical Islamists or jihadist 
extremists. It should not be an act of moral courage for a 
soldier to identify a fellow soldier who is displaying 
extremist behavior. It should be an obligation. And as such, 
the commanders need specific guidelines as to what jihadist 
extremist behavior is and re-emphasize how to use the many 
tools and options they have at their disposal to curb the 
behavior, to rehabilitate soldiers, if possible, or to take 
legal or separation action. Because jihadist extremists are 
potentially linked to terrorist organizations that directly 
threaten the security of the United States, it is essential 
that our government agencies are sharing information about such 
individuals.
    What has been in the media these last few days about Major 
Hasan and his behavior, if determined to be true, is very 
disturbing. There are allegations such as justifying suicide 
bombing on the Internet, lecturing fellow soldiers using 
jihadist rhetoric, warning about adverse events if Muslims were 
not allowed to leave military service, repeatedly seeking 
counsel from a radical Imam Anwar al-Awlaki with well-known 
ties to al-Qaeda, attempting to convert some of his patients 
who were suffering from stress disorders to his distorted view 
of Islam--and, finally, was the FBI sharing with the Army what 
it knew about Major Hasan and al-Awlaki, and was the Army 
sharing what it knew about Major Hasan with the FBI?
    While these patterns are preliminary and will be confirmed 
by the investigations that are being conducted, it is very 
similar to what we experienced at Fort Bragg in the late 1990s 
where we were wrongfully tolerating extremists in our 
organization who had displayed a pattern of behavior that put 
them at odds with the values and character of the Army.
    Let me conclude by saying that the incident and Major 
Hasan's behavior is not about Muslims, and their religion, who 
are a part of the fabric of American life, respected and 
assimilated into every aspect of American society, nor is it 
about the 10,000 Muslims in the military who, quite frankly, 
are not seen as Muslims but as soldiers, sailors, airmen, and 
marines. Their contribution, their commitment, and their 
sacrifice is not only appreciated, it is honored.
    This is fundamentally about jihadist extremism, which is at 
odds with the values of America and its military and threatens 
the safety and security of the American people.
    I was in the Pentagon on September 11, 2001, and felt up 
close the horror of this extremism, as the Army lost more 
soldiers and civilians that day than any day in the last 8 
years of war. I know our soldiers and families at Fort Hood are 
stung by this tragedy because their friends and loved ones were 
killed simply because of who they are and what they stand for. 
They were committed to defend this Nation against the very 
extremism that killed them.
    Radical Islam and jihadist extremism is the most 
transformational issue I have dealt with in my military service 
and continues to be so today. In my judgment, it is the most 
significant threat to the security of the American people that 
I have faced in my lifetime. We are a society that espouses 
tolerance and values diversity, and our military reflects those 
values. But at the same time, we must know what a threat looks 
like, and we must know what to do about it.
    Thank you, and I look forward to your questions.
    Chairman Lieberman. Thank you, General Keane, for that 
clear, strong, principled, and, for myself, stirring statement. 
I appreciate it very much.
    We are honored next to have Fran Townsend with us, former 
Assistant to the President for Homeland Security and 
Counterterrorism. We are really grateful to have you here to 
put this case into the context of your experience in the field 
of counterterrorism generally, so please proceed.

   TESTIMONY OF FRANCES FRAGOS TOWNSEND, FORMER ASSISTANT TO 
      PRESIDENT GEORGE W. BUSH FOR HOMELAND SECURITY AND 
                        COUNTERTERRORISM

    Ms. Townsend. Mr. Chairman and Ranking Member Collins, 
thank you. It is really a privilege to be here with you today.
    After more than 20 years in the government, most of it as a 
prosecutor and a Justice Department lawyer, the one thing I 
think we know for sure is that things always look clearer 
looking back than when you are in the heat of battle. So as you 
well understand, I caution the American people to remember that 
imperfect knowledge and facts in the heat of the investigation 
often result in less than perfect judgments and less than 
perfect knowledge. And I applaud the effort of the Committee to 
understand how can we make that knowledge, in the heat of the 
investigation, better so that we can ensure better judgments 
and better action.
    I can say I conducted many such reviews during my time in 
government. Probably the most well known publicly was the 
Katrina Lessons Learned. What I have found more often than not 
is that in the wake of a national tragedy, while we typically 
look for single points of failure, the failures tend to be 
systemic. They are systemic weaknesses and systemic failures, 
and so the importance of your work in identifying those so that 
we can fix them.
    When we look at this particular incident, I, as others I 
think, without knowing all of the facts, come away with many 
questions. I break them down into three distinct areas: First, 
collection; second, law enforcement and the Joint Terrorism 
Task Force investigation; and, third, the military. Let me 
start with collection.
    While we must rely at the moment on public reports, what we 
understand is that there were lawfully intercepted 
communications in an unrelated terrorism investigation. As a 
result of that unrelated investigation, the intelligence 
community identified less than two dozen communications culled 
from this unrelated investigation that had more than 20,000 
communications.
    I must say to you, that is an extraordinary accomplishment 
on the part of the FBI and would not likely have occurred prior 
to September 11, 2001. We must acknowledge what that suggests, 
and that is, a stronger, more capable FBI determined to protect 
us, and that is to be commended.
    Second, I look at the law enforcement and the JTTF 
investigation. To evaluate that, it is difficult without 
understanding several things. First, the content of the 
communications they were looking at, they remain classified and 
the subject of the ongoing investigation. Second, when the JTTF 
investigators looked at those communications, what did they 
look at them against? What information did they have access to 
at the time that they evaluated those communications? And then, 
third, once they had that information on the JTTF and made a 
judgment, whether we ultimately agree with the judgments that 
were made there or not, what did they do to share that 
information with individuals who could have taken action 
outside of a law enforcement context, presumably the U.S. 
military?
    Let me start with content, and while I cannot speak to the 
specific content of Major Hasan's communications, here is what 
we do know about al-Awlaki from the 9/11 Commission report. Al-
Awlaki in late 2000 was an imam in San Diego where also at that 
same mosque were two of the September 11, 2001, hijackers. In 
2001, al-Awlaki relocates to the Dar Al-Hijra mosque in 
Northern Virginia, the same mosque that the same two September 
11, 2001, hijackers from San Diego go to in Northern Virginia, 
as well as a third September 11, 2001, hijacker. And, finally, 
al-Awlaki's phone number is discovered in Ramzi Binalshibh's 
Hamburg apartment as a result of a search that is conducted.
    The FBI and the counterterrorism community know al-Awlaki 
well. He has been the subject of interest and investigation 
since before and after he left the United States in 2002. He is 
well known to the international counterterrorism community and 
to the Yemeni Government.
    Certainly the information regarding what we knew about al-
Awlaki as well as these communications were shared on the JTTF. 
Certainly the Defense Criminal Investigative Service (DCIS) was 
a part of that review and participated. Presumably they looked 
at Major Hasan's personnel file. Of course, the question 
remains: What was in that file? All of the things that General 
Keane articulated, were they there, were they considered?
    Frankly, based on the judgment that was made on the JTTF, 
it raises some question whether or not any of that information, 
negative and derogatory, made it into the personnel file that 
the JTTF had access to. If it was not there, we must ask 
ourselves why and what we can do to ensure that information is 
in there so that the JTTF investigators could have had access 
to it.
    Now, once that information was shared among the JTTF and 
they made a judgment, what happened next? What information was 
shared? I can tell you from my experience in the Justice 
Department, depending on how that information was collected 
will dictate what rules apply in terms of information sharing. 
There are two sets of rules that apply. To Senator Collins' 
question, these can be complicated, perhaps unnecessarily so.
    If the information in those e-mails or those communications 
was collected pursuant to the Foreign Intelligence Surveillance 
Act, typically the warrant that permitted that collection would 
restrict the further dissemination of that information that was 
collected without the permission of the Court. It is not 
difficult. One can go back to the Court, request the 
information, and get permission for sharing. And, in fact, in 
my experience, I could not recall, thinking back on this, a 
time when the Court did not grant such permissions. So that is 
a legal restriction on the sharing.
    The second set of rules is a memorandum of understanding 
that the FBI enters into with each agency that participates in 
the JTTF. The essence of those agreements say that information 
by participants in the JTTF is not to be shared with their home 
agencies without the permission of the JTTF. Presumably that is 
the FBI by whom they are led. Again, that approval can be 
gotten. There is not a reason not to have it.
    I will tell you, as I thought about this case, I think as 
you read the press accounts, the question becomes: Did DOD ask 
for that information to be shared? Did the DOD representative 
on the JTTF ask for that information to be shared back with the 
Army? Of course, we need to know the answer to that question, 
but I will tell you there is something that offends me about 
suggesting that the obligation was only on the part of the 
Department of Defense. Certainly any law enforcement 
investigator there, if they felt that they did not have the 
authority to proceed, but another Federal agency could, whether 
it was on personnel or other reasons, should have suggested 
that the information be shared.
    In the wake of the review, the information and the 
evaluation of the JTTF, when they made that evaluation, did 
they interview Major Hasan? If they did not believe him to be a 
threat, if they believed the communications to be legitimate, 
then why didn't you go and interview him? If you didn't want to 
interview him, why didn't you go and interview his colleagues 
at Walter Reed where the information that was not in the file 
might have been discovered? There are three typical responses 
to those questions.
    First, the protection of sources and methods, that they 
would not have wanted to reveal where they got those 
communications. I would suggest to the Committee that there are 
ways around that concern to mask the source and method by which 
you did that collection.
    Second, regrettably, I worry about a sense of political 
correctness. I worry that, in a post-September 11, 2001, world, 
because we very much respect and rely on the vast majority of 
law-abiding Muslims, and we have done tremendous cultural 
training inside the Federal Government and law enforcement 
agencies, that there might have been some sort of self-
censoring, if you will, a reluctance for them to pursue a 
senior uniformed military member, a doctor who was Muslim.
    Last, there is the FBI's Domestic Investigation Operational 
Guidelines. They were written in December 2008. They are 
updated annually, and it has been suggested that they would not 
have gone out to interview Major Hasan or his employers because 
they would have been discouraged from doing that by the FBI's 
own guidelines. That, too, needs to be looked at and considered 
and whether or not that needs to be changed.
    Last, when we look at the military, we must look at this 
important aspect. As I have suggested, we have to know whether 
or not there was a method by which the derogatory information 
made its way into Major Hasan's personnel file. If it did, who 
was responsible and accountable for following up on that 
information before the intercepts and after the intercepts if 
they had gotten the information?
    We must ensure that even if the military had gotten the 
intercepts and the information that would have been required, 
that they have the process and procedures in place to ensure 
that they not fall through the cracks. They must also have 
adequate resources and training within the military to be able 
to address this issue.
    It is important not simply because you may want to weed out 
someone who is mentally unfit to be deployed, but after all, we 
want to make sure the military has adequate resources to root 
out within their ranks the potential criminal, spy, or 
terrorist.
    As Senator Collins says, it is important that we assure 
ourselves, we address these issues, because it is at the core 
of our obligation to protect our military service members and 
their families. We ask much of them. We owe them an honest 
look. We owe them to redouble our efforts to ensure their 
safety and their security.
    It is easy to offer questions and opinions when we are 
unburdened by the facts. And I am not here to second-guess the 
hard-working public servants who investigated this case, but to 
offer, based on my experience, how we might improve the system 
and better protect our men and women in uniform. Thank you.
    Chairman Lieberman. Thanks, Ms. Townsend. I really 
appreciate the spirit and the context of your testimony, which 
I think will be both very informative and helpful to us as we 
go forward with the investigation.
    Our next witness--and we thank him for coming down from New 
York--is Mitchell Silber, Director of Analysis with the 
Intelligence Division of the New York City Police Department 
(NYPD). Mr. Silber has testified previously before the 
Committee concerning what I would call a seminal report that he 
co-authored for the NYPD, which was titled ``Radicalization in 
the West: A Homegrown Threat.'' The NYPD has really quite a 
remarkable preventive approach--understandably, I suppose, when 
one considers what happened on September 11, 2001--to the 
threat of terrorism generally, including a focus on homegrown 
terrorism. So we are very grateful, Mr. Silber, that you have 
returned to the Committee, and we welcome your testimony at 
this time.

 TESTIMONY OF MITCHELL D. SILBER,\1\ DIRECTOR OF INTELLIGENCE 
           ANALYSIS, NEW YORK CITY POLICE DEPARTMENT

    Mr. Silber. Mr. Chairman, Senator Collins, and Members of 
the Committee, thank you for inviting me as the representative 
of the New York City Police Department to testify here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Silber appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    In October 2007, as you mentioned, I testified before this 
Committee about the findings of a recent study titled 
``Radicalization in the West: The Homegrown Threat'' that I had 
co-authored and the NYPD had published concerning the process 
of radicalization in the West and the threat that it 
potentially posed to the United States. As it has elsewhere, 
this threat has now materialized in the United States.
    The Past 12 Months: During the past 12 months, U.S. 
authorities have uncovered a number of radicalized clusters of 
individuals intent on committing violent jihad within the 
continental United States as well as abroad. These arrests, 
along with intelligence operations, indicate that 
radicalization to violence is taking place in the United 
States.
    Approximately 1 year ago, in November 2008, the Department 
of Homeland Security and the FBI issued a warning relating to 
an al-Qaeda-linked terrorist plot against the Long Island 
Railroad commuter network. The origins of this plot was linked 
directly to Bryant Neal Vinas, a New Yorker, who radicalized to 
violence in and around New York City before traveling to 
Pakistan to seek out an opportunity to participate in violent 
jihad.
    In April 2009, before their arrest by the Joint Terrorism 
Task Force, four men placed what they believed was C4 
explosives outside a Jewish synagogue and community center in 
Riverdale in an attempt to carry out a terrorist act. These men 
were radicalized in the United States.
    In July 2009, seven men were arrested by Federal 
authorities in North Carolina. They possessed weapons and more 
than 27,000 rounds of ammunition and had plans to attack the 
Marine Base at Quantico, Virginia. These men, known as the 
Raleigh 7, were inspired by al-Qaeda and radicalized in the 
United States.
    This past September, Najibullah Zazi, age 24, was arrested 
as part of an al-Qaeda-linked conspiracy to attack locations in 
New York City with hydrogen peroxide-based explosives. The plot 
has been called one of the most serious since September 11, 
2001. Zazi, who lived in Flushing, Queens, during his formative 
years--ages 14 to 23, before departing for Pakistan--
radicalized in the United States.
    Later that same September, Betim Kaziu, a 21-year-old New 
Yorker from Brooklyn, was indicted for conspiracy to commit 
murder abroad and support for foreign terrorists. Arrested in 
Kosovo, Mr. Kaziu sought to join a foreign fighter group 
overseas and ``take up arms against perceived enemies of 
Islam,'' meaning American troops potentially in Iraq or 
Afghanistan. He was also radicalized in the United States.
    And there are more: In Boston, Tarek Mehanna, age 26 and a 
graduate of the Massachusetts College of Pharmacy, was arrested 
last month. Not only did he seek to fight abroad, but he was 
also charged with conspiring to attack civilians at a shopping 
mall in the United States, as well as two members of the 
Executive Branch of the Federal Government. He was radicalized 
in the United States.
    At least 15 men of Somali descent have radicalized in 
Minneapolis over the last few years and have left the United 
States to fight in Somalia. They joined al-Shabaab, a terrorist 
group associated with al-Qaeda and based in Somalia. Our fear 
is: What happens when they return to the United States? 
Australia has already thwarted a plot just this year involving 
individuals who fought alongside al-Shabaab and then returned 
to Melbourne seeking to attack an Australian military base.
    This past September also saw plots involving lone wolves in 
both Dallas, Texas, and Springfield, Illinois. In Dallas, a 
large office building was targeted with a vehicle-borne 
explosive. In Springfield, a Federal building was targeted. 
Though these individuals were not part of any group, much of 
their radicalization seems U.S. based.
    And, finally, there were the recent arrests of two 
Chicagoans with direct links to Lashkar-e-Taiba. This is the 
group that was responsible for the November 2008 Mumbai 
terrorist attack. Though these men seemed to be plotting 
against targets in Denmark, once again it appears that these 
individuals were radicalized in the United States.
    Given the evidence of the past 12-month period, one must 
conclude that radicalization to violence is occurring in the 
United States.
    Process and Radicalization: Given what seems to be a 
pattern of individuals radicalizing to al-Qaeda-inspired 
violence, the NYPD has invested a substantial analytic effort 
in order to assess the causes and process that marked the 
radicalization trajectory of these individuals. Among the cases 
previously mentioned, we saw the pattern repeating itself. It 
is consistent with the model from the 2007 NYPD report that 
suggested of four phases: Pre-radicalization, self-
identification, indoctrination, and jihadization. And driving 
this process is a combination of the proliferation of al-Qaeda 
ideology intertwined with the real or perceived political 
grievances that cite a Western ``war against Islam'' and 
provide the justification for young men with unremarkable 
backgrounds to pursue violent extremism.
    Let me describe in greater detail the four phases.
    Phase I, Pre-Radicalization: Pre-radicalization is the 
point of origin for individuals before they begin this 
progression. It is their life situation before they were 
exposed to and adopted jihadi-Salafi Islam as their own 
ideology. Based on the cases, individuals who are vulnerable to 
radicalization tend to be male Muslims between the ages of 15 
to 35 who are local residents and citizens from varied ethnic 
backgrounds. Significant proportions come from middle-class 
backgrounds and are educated, at least high school graduates, 
if not university students. Based on our case studies, the vast 
majority of individuals who end up radicalizing to violence do 
not start out as religiously observant or knowledgeable.
    Phase 2, Self-Identification: Self-identification is the 
phase where individuals, influenced by both internal and 
external factors, begin to explore more literal interpretations 
of Islam, gradually gravitating away from their old identity 
and beginning to associate themselves with and adopt this 
ideology as their own. The trigger for this ``religious 
seeking'' is often a catalytic event or a crisis which 
challenges the individual's previously held beliefs and causes 
that individual to reconsider their previously held outlook and 
worldview.
    Phase 3, Indoctrination: Indoctrination is the phase in 
which an individual intensifies his beliefs, wholly adopts his 
extremist ideology, and concludes without question that action 
is required to support and further the cause. That action is 
violence. Indoctrination is the manifestation of accepting a 
religious-political ideology that justifies, legitimizes, and 
encourages violence against anything kufir, or un-Islamic, 
including the West, its citizens, its allies, or those whose 
opinions are contrary to their own extremist agenda.
    The signatures associated with this phase include becoming 
an active participant in a group and simultaneously becoming 
increasingly isolated from one's life. Gradually, the 
individuals begin to isolate themselves from secular society 
and self-radicalize. They come to believe that the world is 
divided between enlightened believers (themselves) and infidels 
(everybody else).
    Phase 4, Jihadization, or the ``Violence Phase'': 
Jihadization is a phase in which individuals accept their own 
individual duty to participate in violent jihad and self-
designate themselves as holy warriors or mujahideen. Often, 
individuals will seek to travel abroad to participate in a 
field of jihad such as Afghanistan, Pakistan, Kashmir, 
Chechnya, Somalia, or Iraq, only to be redirected back to the 
West to do ``something for the cause.'' Frequently, the group 
members participate in outdoor activities like rafting, 
camping, or paintball with the purpose of vetting, bonding, and 
training. In addition, mental preparation commences as jihadist 
videos are watched. And, last, potential targets are chosen, 
surveillance and reconnaissance begin, and the group weaponizes 
with readily available components.
    New Analysis: While much of the 2007 radicalization study 
remains directly applicable to the last 12 months' events, 
additional research has highlighted some new findings. The most 
important is that the Internet has become an even more valuable 
venue and a driver for radicalization. In fact, this finding 
was also highlighted by a 2008 report that this Committee 
produced, noting accurately that, ``the use of the Internet by 
al-Qaeda and other violent Islamist extremist groups has 
expanded the terrorist threat to our homeland. No longer is the 
threat just from abroad, as was the case with the attacks of 
September 11, 2001; the threat is now increasingly from within, 
from homegrown terrorists who are inspired by violent Islamist 
ideology to plan and execute attacks where they live. One of 
the primary drivers of this new threat is the use of the 
Internet to enlist individuals or groups of individuals to join 
the cause without ever affiliating with a terrorist 
organization.''
    In 2007, we discussed the concept of a ``spiritual 
sanctioner,'' an individual who provides religious 
justification for violent political extremists. Within the last 
6 months, we have identified a new catalyst for radicalization. 
We call this the ``virtual spiritual sanctioner,'' and although 
he is not the only one, Anwar al-Awlaki, though based in Yemen, 
is an exemplar of this concept.
    Both Anwar al-Awlaki's extremist ties, as previously 
discussed, as well as his ability to translate literature that 
promotes violent jihad into English have enabled his widespread 
radicalizing effect. Not only has al-Awlaki been a religious 
authority cited by the convicted Fort Dix plotters, who were 
disrupted in a 2007 plot against Fort Dix in New Jersey, but 
his tapes were also played for all of those who attended the 
Toronto 18's makeshift training camp, held north of Toronto in 
the winter of 2005. That group plotted to explode three tons of 
ammonium nitrate in Toronto in the fall of 2006.
    Key Judgments: First, in recent years, U.S. authorities 
have uncovered significant and increasing numbers of 
radicalized clusters or individuals intent on committing 
violent jihad either in the United States or abroad. These 
arrests confirm that radicalization is taking place in the 
United States today.
    Second, it is also noteworthy that in the past year, there 
have been a half dozen cases of individuals who, instead of 
traveling abroad to carry out violence, have elected to do it 
here in the United States. This is substantially different from 
what we have seen in the past and may reflect an emerging 
pattern.
    And third, the al-Qaeda threat to the U.S. homeland is no 
longer limited to al-Qaeda core. Rather, it has decentralized 
and now consists of three primary elements: Al-Qaeda core; al-
Qaeda allies, like Lashkar-e-Taiba, Islamic Jihad Union, and 
others who have begun to target the West; and, most recently, 
the al-Qaeda-inspired or homegrown threat that has no 
operational relationship with al-Qaeda core, but consists of 
individuals radicalized in the West who utilize al-Qaeda 
ideology as their inspiration for action.
    Thank you.
    Chairman Lieberman. Well, thank you, Mr. Silber. Just two 
quick comments.
    One, the testimony that you gave, the summary of the 
various homegrown terrorist plots that have been formed and 
stopped in the last year, reminds us that though we are in an 
unconventional war with the Islamist extremists who attacked us 
on September 11, 2001, that war increasingly has come within 
our borders. It started here officially, if you will, even 
though it was coming at us before September 11, 2001, but this 
pattern of homegrown radicalization is a very significant new 
front and is one that law enforcement is obviously dealing with 
quite effectively. Most of these plots, except for the ones 
that were lone wolves such as the Little Rock case and 
presumably Major Hasan's case, at least what we know of him 
now, were true groups and have been stopped.
    My second comment is that in the question-and-answer period 
I am going to ask you to relate this schematic framework that 
you have of the phases of radicalization to Major Hasan based 
on what you know about him from public sources now.
    Our next witness is Juan Carlos Zarate, former Deputy 
Assistant to the President, Deputy National Security Adviser 
for Combating Terrorism, and before that Assistant Secretary of 
the Treasury for Terrorist Financing. Mr. Zarate comes to us 
today as Senior Adviser at the Center for Strategic and 
International Studies.
    Thank you very much for being here.

TESTIMONY OF HON. JUAN CARLOS ZARATE,\1\ SENIOR ADVISER, CENTER 
  FOR STRATEGIC AND INTERNATIONAL STUDIES; AND FORMER DEPUTY 
       NATIONAL SECURITY ADVISOR FOR COMBATING TERRORISM

    Mr. Zarate. Thank you, Chairman Lieberman, Senator Collins, 
and distinguished Members of the Committee. Thank you very much 
for the opportunity to testify today about the horrific attacks 
that occurred on November 5, 2009.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zarate appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    Mr. Chairman, I have written testimony that I ask be 
entered in the record.
    Chairman Lieberman. Without objection, so ordered.
    Mr. Zarate. Thank you. My testimony today, Mr. Chairman, 
addresses some of the implications of the Fort Hood attack, 
including the continued terrorist threats to our military in 
the United States, the challenges of dealing with the lone-wolf 
insider threat, and the increasing problem of radicalization 
and the threat of violent Islamic extremism.
    The horrific event at Fort Hood was shocking not only for 
its lethality but because an attack against our men and women 
of the military occurred in our own country, on a major 
military base, and allegedly by an Army officer whose job it 
was to care for the mental well-being of our soldiers.
    The attack has obviously raised legitimate questions about 
why such an event happened; whether authorities, both civilian 
and military, could have prevented such an attack; and the 
national security implications of this incident moving forward. 
Unlike any event since September 11, 2001, it has also fueled 
discussion about the specter of a violent extremist ideology in 
our midst.
    I think it is premature, though, to answer any of these 
questions completely or make final judgments without more 
information about the event and the alleged perpetrator. There 
may indeed have been a failure to connect the dots or, more 
importantly, a failure to evaluate completely what those dots 
meant, but I think it is too early to tell.
    What makes the Fort Hood case particularly difficult to 
assess, especially at this point, is that there may have been a 
mixture of motives or factors at play in the alleged 
perpetrator's mind. What makes it a case that appears to have 
been harder to disrupt was that Major Hasan seems to have acted 
alone, in lone-wolf fashion, and may have used his medical 
research to mask his own inner turmoil and attraction to a 
violent ideology.
    Unfortunately, as Mr. Silber points out, this event follows 
a line of attacks against military personnel in separate 
incidents, including a murder at a military recruitment center 
in Little Rock, an act of fratricide at Camp Liberty in Iraq, 
and another act of fratricide at Camp Pennsylvania in Kuwait in 
March 2003. The event also occurred in the wake of several 
disrupted terrorist plots in the United States, raising 
questions about whether we are facing a new wave of terrorism 
driven in part by self-radicalized actors. The FBI, in concert 
with other authorities, recently disrupted, as Mr. Silber 
mentioned, a series of serious plots and arrested potential 
terrorists from New York and North Carolina to Texas and 
Illinois. Some of these plots were homegrown and more local in 
nature, while at least two of them appear to have serious 
international terrorist connections. Some of these plots, like 
the foiled attack on Quantico, the attempt to shoot down a 
military transport plane in Newburgh, and the failed attack on 
Fort Dix in 2000, were aimed directly at our military here at 
home.
    Even with all these events occurring in a short period of 
time, I think we must be careful not to draw final conclusions 
about how the Fort Hood attack fits into these series of 
arrests and incidents and whether there is a recognizable 
pattern that ties this event to all the others.
    That said, I think it is important in the first instance to 
recognize the constant threat to our military from terrorist 
attacks. From the attacks at the marine barracks in Beirut in 
1983, the destruction of Khobar Towers in Saudi Arabia in 1996, 
the attack on the USS Cole in 2000, to the present day attacks 
on Bagram Air Base in Afghanistan, terrorists have purposefully 
targeted U.S. military and installations abroad.
    For homegrown or self-radicalized individuals or cells, 
military bases provide the most visible and legitimate targets 
that help them justify their actions by tying their attacks 
directly to the perceived attacks on Muslims by the U.S. 
military. Attacks on our military I think will continue and 
will grow more likely over time. U.S. military presence abroad 
will remain a visible target for our enemies--including Sunni 
and Shia dominated and inspired terrorist groups. At home, 
violent radicals will see the military as an obvious and 
legitimate target. It is important, then, for the military to 
continue to review and refine its security procedures at all 
our installations and for all our personnel. The problem in 
this case, the case of Fort Hood, though, seems not to have 
come from the outside but from within.
    Based on publicly available information, it appears likely 
that the alleged perpetrator acted alone. Unlike a classic lone 
wolf, though, the alleged perpetrator in this case used his 
privileged role as an insider--an officer and doctor--to attack 
the military and murder his fellow soldiers. In many ways, the 
lone-wolf insider threat is the most challenging and difficult 
of problems for the counterterrorism and law enforcement 
communities. The more a terrorist is interacting, 
communicating, and manifesting intent and capabilities, the 
more likely the plot can be prevented.
    The U.S. Government and foreign partners have uncovered a 
variety of such cells and networks since September 11, 2001, 
and prevented numerous attacks. If there is no expression of 
violent tendencies or plans, then it is difficult not only for 
authorities but also friends, colleagues, and neighbors to 
determine that a violent threat is looming.
    Law enforcement, in addition, is often limited in its 
ability to inquire or follow up without indications of directly 
suspicious or criminal behavior. The June 1, 2009, murder at 
the military recruitment center in Little Rock is a sobering 
reminder of these limitations.
    In retrospect, the Fort Hood case could prove to be even 
more complicated than past events. It may be that we will not 
see a smoking gun that revealed Major Hasan's true motivations 
and signaled an intent to resort to violence. Like other such 
violent incidents in the United States, there will likely be a 
patchwork of data points and behavioral clues which, in light 
of the incident, and with hindsight, as Ms. Townsend indicates, 
appear to point to a path of violence. A key question, then, is 
whether those data points were seen and evaluated properly.
    The most troubling of the alleged data points revealed to 
date involved suspicious and supposed communications between 
Major Hasan and Anwar al-Awlaki. As has been testified to, al-
Awlaki is Yemeni-American radical cleric with ties to the 
September 11, 2001, hijackers and with popular appeal on the 
Internet and in Yemen with Western violent extremists. Al-
Awlaki has been and is well known to the U.S. Government.
    Though too early to fully evaluate, what may have made 
these communications in the alleged case of Major Hasan more 
difficult to diagnose is that the alleged perpetrator's own 
doubts and conflict about serving in the military may have been 
masked by his own academic and medical research about the mind 
of Muslim soldiers.
    The threat of an American lone wolf--radicalized remotely 
in the United States, perhaps via the Internet--presents the 
most difficult problem for U.S. law enforcement. The reality is 
that attacks by such actors are difficult to predict and to 
prevent, even more so when they are acting from the inside.
    In light of this attack, there has begun a heightened 
debate about the threat posed by the ideology of violent 
Islamic extremism. The core narrative of this ideology--that 
the West is at war with Islam and that Muslims around the world 
must unite to fight the United States in defense of fellow 
Muslims--has widespread appeal. This is a simple, 
straightforward narrative that helps explain world events and 
local grievances. It is a narrative that is widely believed in 
many corners of the world and acts as a siren song for troubled 
individuals in crisis.
    Al-Qaeda and their adherents take full advantage of this 
ideology to lure cannon fodder for their cause. Osama bin Laden 
and al-Zawahiri, al-Qaeda's number one and two, have frequently 
crafted messages directed to American audiences. In this case, 
there is no doubt that al-Qaeda will reference and use the Fort 
Hood attack in its propaganda as a way of convincing their 
adherents that the U.S. military is under pressure and 
suffering at the hands of al-Qaeda.
    Though this is an ideology that is inherently exclusionary 
and violent, it is not illegal to believe in or espouse it. 
Many do throughout the world, including some people in the 
United States. Given our First Amendment protections, merely 
espousing such views cannot be considered illegal, and absent 
proximity and causality tied to an act of violence, the 
preaching of such hatred and advocacy of violence is not 
prosecutable as incitement under U.S. law. There are many 
radical ideologues, like al-Awlaki, who skate the line between 
spreading this hateful ideology and inciting violence under 
U.S. law.
    Fortunately, the United States has largely been immune from 
the larger social and economic problems of Muslim citizen 
integration and the attendant problems of radicalization found 
throughout Europe and in parts of Asia. Much of this can be 
attributed to the fundamental integration of all immigrants 
into American society as Americans and to the common ideals and 
counter-narrative of the American dream. The danger of this 
ideology in the United States is for more individuals to fall 
prey to radicalization and for a divide to form within American 
society.
    This is why I think American citizens--Muslims and non-
Muslims alike--have a special responsibility not to play into 
the hands of the violent extremists and their ideology. There 
cannot be a divide in our society. To the credit of our great 
country and our citizens, reaction to the horrors of Fort Hood 
has been measured and civil.
    Muslim-Americans, I think, have a special responsibility in 
this ideological battle. Regardless ultimately of the 
motivations of the perpetrator, the attack at Fort Hood is an 
important moment for Muslim-Americans to stand up directly 
against this ideology that has proven to be so deadly and 
destructive. This involves more than just condemnation of 
violent attacks but an active participation in the debate about 
how to isolate, discredit, and ultimately displace the allure 
of this false ideology, especially in the United States.
    I applaud leaders like Salam al-Marayati, the Executive 
Director of the Muslim Public Affairs Council, who has issued a 
clarion call to fellow Muslim-Americans. In a recent article, 
he called the Fort Hood attacks a ``defining moment for Muslim-
Americans'' and concluded the following: ``We as Muslim-
Americans are the answer to this frightening phenomenon of 
terrorism and violent extremism. We own our own destiny, and it 
is fundamentally intertwined with our nation's destiny. 
Terrorism will be defeated with our work on the front lines, 
not in the battlefields, but in our mosques and community 
centers and youth associations. By standing up and working for 
change, we are acting on the best and guiding principles of 
Islam and of America.''
    Indeed, I think it is our vibrant American Muslim 
communities and leaders who must rise up and face down the 
ideology that glorifies death and aims to foment division in 
our society.
    As the review of this incident unfolds, I think it will be 
critical to ensure that information was shared and evaluated 
properly. But I also think it will be important to preserve the 
necessary tools to law enforcement and the intelligence 
community that will allow them to uncover data points related 
to domestic extremist terrorism. In this regard, I think the 
two provisions of the PATRIOT Act set to sunset this year, 
including the roving wiretap provision and business records 
authority, should be renewed. Importantly, the provision from 
the Intelligence Reform and Terrorism Protection Act (IRTPA), 
commonly referred to as the ``lone-wolf provision,'' should 
also be renewed. These I think should be renewed without 
unnecessary or burdensome requirements that may dissuade or 
prevent the effective use of these techniques by law 
enforcement.
    In addition, I think Congress and the Administration should 
ensure that the revised Attorney General Guidelines, mentioned 
by Ms. Townsend, are fully in effect, fully supported and 
implemented. In addition, the Administration and Congress 
should look at existing laws and authorities to determine 
whether modifications or more aggressive use would be 
appropriate against those providing material and ideological 
support to lone-wolf terrorists and violent extremists.
    Chairman Lieberman. Mr. Zarate, excuse me for interrupting, 
but if you can come to a close--I actually went over your 
statement last night, and it is very good, including the 
questions that you suggest we raise. But we have got a number 
of Committee Members here, and I know they will want to get 
into the questioning soon.
    Mr. Zarate. Thank you, Mr. Chairman. Let me just conclude 
then with a couple of the key questions I think that not only 
build on the questions that have been raised, but also point to 
some forward-looking dimensions.
    Obviously, the key and core question is whether or not 
there were any restrictions in terms of information sharing, 
both horizontally and vertically, that affected the ability to 
see the collective body of information about Major Hasan, the 
suspect.
    Are there existing ties with radical ideologues abroad or 
via the Internet that should be reviewed, again, for the threat 
of radicalization posed?
    Are there common warning signs in the Fort Hood case and in 
the 2003 Camp Pennsylvania attack that can be used to prevent 
such future attacks?
    Are there realistic expectations about preventing lone-wolf 
attacks? And in that regard, are there relevant laws and 
authorities in place to allow authorities to get in front of 
such threats?
    Importantly, how much of this prevention goes beyond the 
Federal Government? How much of this bears societal response of 
heightened vigilance, without creating an atmosphere of fear, 
suspicion, and recrimination among neighbors? How do we strike 
that balance?
    And, finally, should there be a more formal mechanism for 
enlisting Muslim-Americans to empower them to take on violent 
Islamist extremist ideology and to allow Federal, State, local, 
and tribal authorities an ability to more actively address 
community concerns?
    With that, Mr. Chairman, I would be happy to answer any 
questions.
    Chairman Lieberman. Thanks very much for that very helpful 
testimony.
    Our last witness today is Brian Jenkins, who is Senior 
Adviser at the RAND Corporation. Mr. Jenkins was involved in 
the study of terrorism before most people focused on the 
concept and a long time before we, much to our dismay and 
surprise, ended up in a war with one group of terrorists, as we 
are now. He was last before the Committee in January testifying 
on the Mumbai attacks of last November. We welcome you back and 
look forward to your testimony now.

  TESTIMONY OF BRIAN MICHAEL JENKINS,\1\ SENIOR ADVISER, RAND 
                          CORPORATION

    Mr. Jenkins. Thank you very much, Mr. Chairman, Senator 
Collins, and Members of the Committee, for inviting me to talk 
to you about this tragic and disquieting and event.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 72.
---------------------------------------------------------------------------
    This small pin I wear on my lapel was designed by a 
fireman. It was given to me in memory of those who were killed 
on September 11, 2001. I am wearing it this morning out of 
respect for those who were killed and wounded at Fort Hood.
    You may recall that, when I testified before this same 
Committee last January on the terrorist attacks in Mumbai, in 
response to the question, ``Could a Mumbai-style attack happen 
in the United States?'' I said, ``It could. The difference lies 
in the scale of events.'' While the recruiting and training of 
10 suicide attackers was far beyond anything that we had seen 
in any of the conspiracies uncovered since September 11, 2001, 
I did point out that we had seen lone gunmen and pairs of 
shooters, motivated by political cause or mental illness, run 
amok, determined to kill in quantity. Therefore, an attack 
carried out by one or a small number of attackers armed with 
readily available weapons, nothing exotic, perhaps causing 
scores of casualties, was certainly not inconceivable.
    I mention that now because the threat we face is not so 
much one of organizations penetrating the United States as it 
is of the spread of ideologies and models of behavior. And that 
is what we are talking about here, models of behavior. It is 
noteworthy that the only terrorist attackers to succeed in 
harming anyone in the United States since September 11, 2001, 
have been lone gunmen.
    Now, at a glance, Major Hasan's rampage at Fort Hood looks 
a lot like what used to be called ``going postal''--a deepening 
sense of personal grievance culminating in a homicidal rampage 
directed against co-workers, in this case, fellow soldiers. For 
Major Hasan, ``going jihad'' reflects the channeling of obvious 
personality problems into a deadly fanaticism.
    We must wait for a full inquiry to thoroughly understand 
Major Hasan's motives, his preparations, his objectives, but on 
the basis of what has been reported in the news media, we 
clearly have a troubled man who engaged with extremist 
ideologies via the Internet that resonated with and reinforced 
his own anger, leading him at some point to a decision to kill.
    The markers on his path to the November 5, 2009, slayings 
correspond to many of those laid out in previous studies of 
radicalization, notably, the excellent study by the New York 
Police Department.
    If some of the signposts are missing, it is because, except 
for Major Hasan's reported correspondence with al-Awlaki, his 
journey may have been largely an interior one.
    I mention signposts. Were there signposts? Clearly, there 
seemed to have been some. Mass killings like the one at Fort 
Hood invariably prompt the question, could it have been 
prevented? I am going to join the other members of the panel 
and say that it is premature for me, on the basis of what we 
know now, to make that judgment. I do have to say that 
experience has taught me to be exceptionally cautious in this 
domain. I know that, seen through a rearview mirror, a lot of 
these clues seem tantalizingly obvious--if only we had been 
able to connect the dots. That famous phrase sometimes seduces 
us into overestimating what is knowable, especially in the 
realm of human behavior. We are just not very good at 
predicting human violence. We do not have an X-ray for a man's 
soul.
    I do, however, think that a very useful line of inquiry, 
separate from the specifics of this case, would be exploring 
the issue of self-radicalized individuals. Much of what we say 
about radicalization derives from looking at groups. Individual 
terrorists lie at the edge of our knowledge here, implying 
perhaps a need for the capabilities of both forensic psychology 
and radicalization theory. It would be useful to explore what 
we should be looking for here and, just as importantly, what we 
can reasonably expect to know.
    Senator Collins, you mentioned a shortage of psychiatrists 
in the military. Let me offer an aside here. The long duration 
and the nature of the conflicts we confront today create 
exceptional challenges to members of our armed forces. The 
stresses are showing up in the form of breakdowns, suicides, 
sometimes homicides. Now, mark my words, this by no means 
excuses Major Hasan's acts. It does suggest, however, that we 
are going to have to be extraordinarily sensitive to the 
mindset, the morale, and the mental well-being of our men and 
women in uniform upon whom we have placed such a great burden.
    Now let me shift quickly from Major Hasan to this event in 
the context of the current terrorist threat.
    According to research at RAND, the number and geographic 
range of al-Qaeda-inspired attacks have grown each year since 
September 11, 2001, although clearly at the same time there has 
been a decline in the quality of these actions. Some analysts 
say that al-Qaeda is following a strategy of ``leaderless 
resistance'' as a consequence of the relentless pursuit to 
which we have subjected it.
    Leaderless resistance envisions an army of autonomous 
terrorist operatives, united in a common cause but not 
connected organizationally. It is difficult to destroy a 
leaderless enterprise, but leaderless resistance is ultimately 
a strategy of weakness. As I say, we have greatly reduced al-
Qaeda's operational capabilities. And outside of Pakistan and 
Afghanistan, its leaders can do little other than exhort others 
to violence.
    What leaderless resistance does offer is the opportunity 
for terrorist leaders to assert ownership of just about every 
homicidal maniac on the planet. And therefore, it is not 
surprising that Major Hasan's Internet imam was quick to praise 
the Fort Hood murders as another jihad success.
    Since September 11, 2001, authorities in the United States 
have uncovered nearly 30 plots to carry out attacks here in the 
United States or abroad or to provide support for terrorist 
organizations. Not all of these, even if undiscovered, would 
have resulted in successful terrorist attacks, but I do remind 
you that very little separates the ambitions of terrorist 
wannabes from deadly terrorist assaults. The essential 
ingredient is intent, and that is what we are talking about 
here. Therefore, domestic intelligence collection remains a 
necessary and critical component of homeland security.
    Mr. Silber mentioned the plots discovered in 2009. We have 
had eight plots discovered thus far this year, plus two actual 
attacks--the one in Arkansas and the one at Fort Hood. This is 
a much higher number than in previous years. There appears to 
be common inspiration. There is no evidence of organizational 
connection between these events. These are individual responses 
to jihadist propaganda in the context of U.S. policy decisions 
that portray what we do as an assault on Islam.
    Six of the plots since September 11, 2001, have been 
directed against American soldiers or military facilities in 
the United States, and, again, this reflects jihadist 
exhortation as well as the plotters' own perceptions that 
attacking military targets is more legitimate than attacking 
civilians--although I hasten to point out that the majority of 
the plots were aimed simply at causing mass civilian 
casualties, especially in public transportation venues.
    What does this case tell us about the radicalization of 
Muslims in America? Here I join you, Senator Lieberman, in 
saying we have to be careful about overreaction. In all of 
these 30-some plots, about 100 individuals who were arrested 
for terrorism-related crimes, almost all of them recruited 
locally. It does show that radicalization and recruitment to 
terrorism is occurring in the United States and is a security 
concern. It has, however, yielded very few recruits. Indeed, 
the paucity of significant terrorist attacks since September 
11, 2001, suggests not only intelligence and investigative 
success, but an American Muslim community that remains 
overwhelmingly unsympathetic to jihadist appeals.
    What authorities are going to confront going forward are 
tiny conspiracies or the actions of individuals which, in a 
free society, are always going to be hard to predict and 
prevent.
    Chairman Lieberman. Thank you very much. Excellent 
background, excellent context. And you are right, the record 
shows that the number of Muslim-Americans involved in these 
plots is quite small. Obviously what is unsettling is that a 
small number of people can do terrible harm. But it is very 
important to put that small number in the context of the larger 
Muslim-American community, which obviously is not a part of 
this.
    We are going to have 7-minute rounds of questions for the 
Members of the Committee.
    I want to quickly focus on something in your testimony, Dr. 
Jenkins. After the murders at Fort Hood and information began 
to come out about Major Hasan, there was commentary that he was 
obviously an unstable person, a person under stress and, to 
some extent, going from that to a willingness to conclude that 
this was not a jihadist act or a terrorist attack.
    You comment on that in your prepared testimony, and I just 
want to draw you out on it. My conclusion from your testimony 
is that the existence of mental stress or instability does not 
mean that the act carried out is not a jihadist or terrorist 
act. Is that correct?
    Mr. Jenkins. Absolutely. These are not mutually exclusive 
categories. In many cases, individuals who are terrorists were 
attracted to these extremist ideologies because of their own 
personal difficulties and discontents. I mean, terrorism does 
not attract the well-adjusted.
    Chairman Lieberman. Absolutely. That is the point.
    Mr. Jenkins. So what often happens in these cases is that 
individuals who are angry at something reach out toward some 
ideology that, as I say, resonates with and reinforces that and 
channels them down a path toward a particular action.
    So if we find, for example, that there are many aspects of 
Major Hasan's personality that are troublesome, that this was a 
man in some type of personal crisis, that clearly does not 
exclude his act from being properly labeled an act of 
terrorism.
    Chairman Lieberman. Thank you.
    General Keane, I believe Mr. Zarate talked, quite 
correctly, about the premium we put in our country on free 
speech and where one draws the line between free political 
expressions, even if they are extremist, and actionable 
behavior of any kind. But I think in this case, we have to view 
that in the context of what it means to be in the U.S. 
military? And I wonder if you could just help us understand, 
particularly in light of the concerns that Ms. Townsend 
expressed, that others have expressed, that we have been 
concerned about, whether some fear of being politically 
incorrect inhibited earlier action against Major Hasan by those 
who had heard him express extremist views.
    So does a soldier have the right to say anything he wants 
to say without any consequences?
    General Keane. Absolutely not. Certainly free speech is an 
integral part of the rights of Americans, but in the U.S. 
military, not too surprising, the mission comes first. And to 
be able to perform that mission, you need in a team cohesion, 
morale, discipline, and good order. And anyone who is 
contributing to break that cohesion and that moral and good 
discipline and order with rhetoric, with speech, with actions, 
with behavior, can be held accountable by the chain of command 
for that speech, for that behavior, and, therefore, be 
counseled and rehabilitated for it, and that if there is such 
an unwillingness to change or such a commitment to those 
beliefs, then be separated for it, all of this short of any 
criminal behavior.
    Chairman Lieberman. Right.
    General Keane. As some of the panelists discussed. A 
military unit cannot function and perform its mission under 
considerable stress without the necessary cohesion, morale, 
good order, and discipline, it has confidence in each other. 
When this speech starts to occur, this inflammatory speech that 
aggravates other members of the team, it polarizes a unit. It 
differentiates people in the unit. It forces them to choose 
sides. And that is where the commanders and the supervisors 
have to step in and start to address this issue. Regardless of 
people's sensibilities, the order and planning and morale of 
the unit takes priority over those sensibilities. That is the 
reality of the military and its mission and what the American 
people are holding us accountable for.
    Chairman Lieberman. Agreed. What then is the responsibility 
of an individual soldier who hears a fellow soldier express 
political views that he deems are extremist? In the case in 
which you were involved at Fort Bragg, they were white 
supremacist views. What we are worried about here, obviously, 
is violent Islamist extremist views. But what is the 
responsibility of a soldier to report up the chain of command 
such observations?
    General Keane. Yes, the members of the team have an 
obligation to identify and report to the chain of command any 
of this type of extremist behavior, rhetoric, etc. That was 
clearly one of the problems we had at Fort Bragg inside our 
units. It was being tolerated by the soldiers and also being 
tolerated by the immediate chain of command to a certain 
degree.
    It is unclear in my mind that we have in the military today 
and in our army units clear, specific guidelines as to what is 
jihadist extremist behavior.
    Chairman Lieberman. Right.
    General Keane. How do you identify this behavior? How does 
it manifest itself?
    I think that is one of the things that this investigation 
will probably determine, as I said in my remarks, and I believe 
that the Department of Defense will more than likely have to 
issue some very specific guidelines, as we had to do after the 
racially motivated murders and the skinhead extremism we had in 
our midst in the 1990s.
    Chairman Lieberman. So we will definitely pursue that, and 
that may be an area of recommendation for us. But to the best 
of your knowledge now, does existing army policy about 
extremism generally prohibit extremist activity or is it more 
focused based on the Fort Bragg case on white supremacist 
activity?
    General Keane. The Army pamphlet that was published in 
2000--it is titled ``Extremist Activities''--driven by the Fort 
Bragg incident, deals with racial extremism, period. That is 
its focus. It is under the general capstone of an Army policy 
that has a much broader focus than that. But I think the 
pamphlet was designed to give the commanders and the chain of 
command some specifics in terms of how to deal with this 
problem given that particular incident.
    So what we are dealing with here now, in my view, dealing 
with jihadist extremists potentially--certainly preliminary 
evidence would suggest that--those kinds of guidelines in terms 
of defining that and how to deal with that as a specific case 
in that behavior and that attitude and that rhetoric are not in 
the hands of our commanders.
    Chairman Lieberman. If our investigation finds that is 
true--and I suspect it is--that is a real omission and an area 
for correction, particularly in light of the record that other 
witnesses have testified on the way in which jihadists or 
people are actually being self-radicalized or radicalized over 
the Internet, are being exhorted to attack the American 
military on bases, not just abroad but here at home. My time is 
up. Thank you, General.
    Senator Collins.
    Senator Collins. Thank you.
    General let me pick up where the Chairman left off. I have 
the pamphlet on extremist activities that you just mentioned, 
and I commend you for taking strong action after the racially 
motivated murder at Fort Bragg. As I read through this 
pamphlet, however, the types of conduct prohibited in the 
policy manual really do not apply in the case of Major Hasan. 
Would you agree with that?
    General Keane. I absolutely would agree. The pamphlet, as 
pamphlets are in the hierarchy of information provided to our 
leaders and our units, normally deals with something that is 
very specific as a result of a particular action under the 
umbrella of a general policy. That is what that was designed to 
do. We do not have anything like that dealing with Major 
Hasan's incident and his behavior and his attitude and what 
should be the actions that guide the leaders and also guide our 
soldiers.
    Senator Collins. That is my conclusion as well. The 
prohibited activities that are listed in this manual are all 
geared toward organized activities. They really do not apply to 
the kind of lone-wolf conduct that we saw with Major Hasan, and 
I agree with the Chairman that this is an area that we need to 
pursue.
    Ms. Townsend, there has also been discussion this morning 
and previously about Major Hasan's First Amendment rights, and 
I want to pursue this issue with you. Both the Foreign 
Intelligence Surveillance Act (FISA) and the Attorney General's 
Guidelines prohibit collection based solely--and that is the 
important word, in my view--on activities protected by the 
First Amendment. And these restrictions were adopted to prevent 
abuses that occurred in the past where Federal intelligence and 
law enforcement agencies targeted individuals based solely on 
their political activities. And no one wants to see that.
    I am concerned, however, by reports that our Federal law 
enforcement and counterintelligence agents may have backed off 
from further inquiries into Major Hasan's activities based on 
concerns about his First Amendment rights.
    Do the restrictions in FISA or in the Attorney General's 
Guidelines in any way prohibit investigations if there are 
other reasons to do so? In other words, to give you a specific, 
wouldn't the fact that Major Hasan had been in repeated contact 
with a radical extremist Islamist cleric who was a known 
associate of al-Qaeda terrorists be a reason to pursue an 
investigation?
    Ms. Townsend. Senator Collins, I agree with you completely. 
To the extent that there would have been concern of infringing 
on Major Hasan's either right to free speech or his freedom to 
practice his religion, there were other factors to which you 
could point beyond that having nothing to do with his religion 
or his speech that could have caused concern. While it is not 
public, from the content of those communications, and now what 
we are hearing from his other colleagues up at Walter Reed, any 
combination of those factors, as long as it was not based 
solely on his exercise of his constitutional freedom, could 
have formed the basis of further inquiry and investigation by 
the FBI.
    Senator Collins. So if we are being told that one reason 
this was not aggressively pursued was concerns that it would 
violate the FISA restrictions or the Attorney General's 
Guidelines, you would disagree with that decision based on what 
you know?
    Ms. Townsend. Based on what I know now, yes, I would 
disagree with that. And, frankly, this is, Senator, why I 
mentioned my concern about political correctness. I think we 
have to ensure that our investigators feel sufficiently backed 
up, if you will, to follow the facts wherever they lead them. 
And if the facts lead them to an investigation of a senior 
member of the uniformed military who happens to be a Muslim 
doctor, then that is where they lead them. But they have to 
feel confident that they can pursue the facts wherever they 
take them against whoever the target may be.
    Senator Collins. And the other very important point that 
you made in your testimony is while the members of the JTTF are 
prohibited from sharing information with their home agency 
without permission of the FBI, not only can they ask 
permission, but presumably the FBI could direct a referral to 
the Army or the DCIS. Is that correct? It goes in both 
directions?
    Ms. Townsend. That is right, and I think the best way to 
explain this to folks is by example. Imagine if you had an 
intercept that was not of a Federal crime. Perhaps it was a 
rape. Perhaps it was child abuse. Suppose you had that sort of 
information come over a wiretap into the JTTF and the local 
police officer did not say, ``Can I share it?'' Presumably, the 
Good Lord willing, somebody paying attention on the JTTF would 
say, ``This needs to be shared with local authorities to either 
prosecute a crime or to protect a child in my example.
    And so, absolutely, my view of this is all members of the 
JTTF have an obligation when they see information--the NYPD has 
a public program. It's called ``See It, Say It.'' Certainly if 
it passes you, just because it is not in the jurisdiction of 
your particular agency, doesn't relieve you of the fundamental 
law enforcement obligation to follow it up.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    I just want to say very briefly, in Connecticut, some years 
ago we had a case just as you describe, unrelated to terrorism, 
where a local official was being investigated for corruption, 
and wiretaps picked up the fact that this local official was 
involved in basically sexual abuse of children. And it went 
right up to the Attorney General at that time to determine 
whether he should be arrested for those acts of abusing the 
children. And, of course, the correct judgment was made, which 
was that the corruption investigation was forgotten and he was 
arrested, convicted, and is still in jail for those crimes.
    As is our custom on this Committee, we call on order of 
arrival, so the order, for the information of my colleagues, is 
Senators Carper, McCain, Ensign, Levin, Graham, McCaskill, and 
Pryor. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. To our witnesses, 
thank you very much for joining us today and for the time that 
you have invested in preparing for your testimony and 
responding to our questions.
    Mr. Chairman, this testimony has been both illuminating 
and, I believe, most constructive.
    I want to return to the testimony that Mr. Zarate gave us, 
and near the end of your testimony, you quoted--I did not catch 
it, and I tried to find it in your statement who actually said 
these words--I believe it was a Muslim leader who said 
something to the effect, ``we, the Muslim-Americans, are the 
defining answer.'' Do you remember that?
    Mr. Zarate. That is right, sir.
    Senator Carper. Just go back with us and revisit that 
comment, please.
    Mr. Zarate. Right. This comment comes from Salam al-
Marayati, who is the Executive Director of a group called the 
Muslim Public Affairs Council, an important group. He is based 
in Southern California, and soon after the Fort Hood attack, he 
posted on Huffington Post what is, in essence, an op-ed. And as 
I described it, he called it a defining moment for American-
Muslims, which was to, in essence, own our own destiny and 
fundamentally deal with terrorism in our midst.
    What I found incredibly important was--and this is based on 
my experience both at Treasury and at the National Security 
Council (NSC), having interacted and engaged with Muslim-
American leaders and community members for some time on these 
issues of terrorism--the realization and the articulation about 
the importance of the battlefields and the front lines in the 
mosques, community centers, and youth associations. I think 
that is an incredible statement by Salam. I think it is an 
important realization that Muslim-Americans have to take 
ownership of the ideological battle happening within Islam 
itself and have to find ways of isolating those who are 
radicalizing our youth and getting into the heads of American 
citizens.
    Senator Carper. Thank you. Of all the comments that were 
given by witnesses, that one just jumped right off the page at 
me. And I just wanted to ask each of our witnesses to respond 
to what you heard here.
    We are a legislative committee. We are not the FBI. We are 
not the Justice Department. We are not the judge; we are not 
the jury. We are a legislative committee. And one or two of you 
have given us, I think, pretty good advice on some things we 
may want to do legislatively, and I suspect that we will want 
to do most of those things. But in terms of what 
responsibilities the Muslim community in this country have, 
what they can do to help the rest of us to try to make sure 
this kind of thing does not ever happen again, we have heard 
one piece of advice here, and I just want the other witnesses 
to respond to that and share your views, please.
    General Keane. Well, my reaction to that is certainly one 
of encouragement, and I certainly praise them for making those 
remarks. In the largest context of what we are dealing with in 
terms of the challenge inside Islam between the radicals and 
the moderates and traditionalists, and many of those are 
moderates themselves, it is hard to see defeating radical Islam 
itself without the willing cooperation of the moderates to 
reject it. I mean, we are going to kill a lot of these radical 
Islamists over the next coming years, just as we have done over 
the last 8 years. But as we all know who have been involved up 
close in this fight, the fact of the matter is that killing 
them will not defeat this movement. This movement will have to 
be defeated by moderate Muslims who reject it.
    Senator Carper. Good. Thank you. Ms. Townsend.
    Ms. Townsend. As you know, Senator, most Muslim-Americans 
are patriotic, law-abiding citizens, and, in fact, while very 
few actually speak publicly--and I will explain why--many 
cooperate quietly with local law enforcement and Federal law 
enforcement, and we will not be successful without that 
continuing, and that is to be commended.
    Oftentimes, moderate Muslims are reluctant to speak out 
because the radicals label them--the word is called 
``takfiri,'' and that is ``un-Islamic''--and separate them from 
the larger ummah of the Muslim world. And it is both 
discouraging to them and frightening to moderate Muslims and 
intimidates them from speaking out. And we have to understand 
that is the environment they live in, so there are few who have 
got the sort of courage to speak publicly, but we do not want 
to discourage them from privately and quietly cooperating with 
Federal and local officials.
    Senator Carper. Thank you. Mr. Silber.
    Mr. Silber. I think the question is in terms of what are 
the ways to combat extremism and what role does the Muslim 
community play, we are informed by our discussions with 
intelligence officials in the United Kingdom, Denmark, and the 
Netherlands who have had to deal with this problem in a 
magnitude greater than we have to date in the United States. 
And, clearly, their response is right along the same lines as 
that. At the end of the day, it is going to be the members of 
the Muslim community themselves who have to de-legitimize this 
as an ideology, and the challenge is for those governments and 
local entities to find willing interlocutors to help them de-
legitimize that ideology.
    Senator Carper. All right. Thank you. Mr. Jenkins.
    Mr. Jenkins. I would just underscore what Ms. Townsend 
said. I think it is important for Muslims to speak out 
publicly, but also there is evidence of a great deal of quiet 
activity going on within the community. We are talking about 
people attempting to ensure that their own family members, 
friends, and colleagues do not go down destructive and self-
destructive paths. So there is a great deal of pressure in the 
community against this type of activity.
    Senator Carper. All right. I said earlier we are not the 
FBI, we are not the Justice Department. We are none of those 
things. We are a legislative committee. Several of you have 
suggested things that we should be doing legislatively to 
reduce the likelihood that this kind of horrific thing will 
happen again in our country--or outside of our country. A 
couple of you made those legislative recommendations. Just go 
back and revisit those, re-emphasize them for us, please.
    Mr. Zarate. I had made the suggestion, Senator, of making 
sure that law enforcement and intelligence authorities have the 
relevant legal authorities to be able to investigate 
domestically because, again, what we are talking about in this 
context--and this has been described by the panelists--is a 
very difficult problem to ferret out, especially when you are 
talking about a lone-wolf scenario. And so it becomes 
incredibly important for authorities to have not only the legal 
backing, structures, and procedures, but also then the 
resources.
    One of the key questions, I think, for the FBI will be: To 
the extent that there are additional pressures to try to ferret 
out these types of actors and events, do they have the 
resources to cover these types of events, to follow up on the 
kinds of communications and leads that may exist, where there 
may be thousands of communications with a figure like an Anwar 
al-Awlaki from the United States. And so that I think is a 
critical question moving forward in addition to others I have 
presented.
    Ms. Townsend. Senator, the two that I would focus on, one 
has to do with--this is my pet issue, as Senator Collins 
knows--the information sharing and the rules. Sometimes we make 
them too cumbersome that it is just discouraging. It is not 
that it is not permitted, but the rules become so cumbersome 
that they are discouraging, and so people do not do it. And I 
think the Committee has a real opportunity to look at things 
like the restrictions pursuant to FISA, the restrictions in the 
Attorney General's Guidelines, and the FBI's own internal 
guidelines. All taken together, it may be that just discouraged 
people from doing what they really needed to do.
    Then the second piece to that I really think is the U.S. 
military, it does not look like the Army got the information 
that they could have acted on within their system. I would not 
stop there. I think we have got to look at whether or not the 
U.S. military, if they had gotten the information, had the 
training, tactics, procedures, resources, and business process 
to ensure that they identify and deal with these things 
effectively.
    Senator Carper. Thank you again very much.
    Chairman Lieberman. Thanks, Senator Carper. Good questions 
and very constructive answers.
    Senator McCain, thanks for being here. You are next.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    I would like to ask the witnesses, do you believe that the 
attack on Fort Hood was an act of terror?
    General Keane. In my mind I do, based on the preliminary 
reports and what Major Hasan was screaming at the time of the 
act and his behavior and attitude prior to that. Just based on 
that preliminary report. Certainly investigations will confirm 
what his motivations are, but what is in front of us right now, 
I do.
    Ms. Townsend. Senator, when you look at just the basic 
English dictionary definition of ``terror,'' which is the use 
of violence to instill fear and intimidation, I think it is 
hard to imagine that this was not an act of terror. I think 
what remains to be seen from the investigation is whether or 
not this is an individual bent on terrorizing or whether he is 
part of some larger conspiracy. But I do think it is an act of 
terror.
    Mr. Silber. From the New York City Police Department's 
perspective, this is an ongoing investigation run by other 
agencies, so we are not going to prejudge their findings.
    Senator McCain. Well, I asked your opinion, not your 
findings. If you do not want to voice your opinion, that is 
fine with me.
    Mr. Zarate.
    Mr. Zarate. Senator McCain, it certainly looks like an act 
of terror to me. I think for the technical definition under 
U.S. law, the question of political motivation behind the 
attack is going to be central, obviously, to determining 
whether or not you can legally classify it as such. But I think 
it looks like an act of terror to me.
    Senator McCain. Mr. Jenkins.
    Mr. Jenkins. Terrorism is defined in the quality of the 
act, and certainly the act itself, I think, meets the criteria 
of an act of terrorism. Under a legal definition, in terms of 
the law, Major Hasan is charged with 13 counts of murder, and 
that is appropriate. We do not need to reach into the criminal 
statutes to find the word ``terrorism'' to prosecute him. We 
have charged him with an ordinary crime, and that is good 
enough.
    Senator McCain. Thank you. Let me just briefly review what 
we do know. We know that Major Hasan had communications with a 
Yemeni-American imam. We know that the FBI had some knowledge 
of this and reviewed certain communications between Major Hasan 
and the subject. That investigation asserted the content of 
these communications was consistent with research being 
conducted by Major Hasan in his position as a psychiatrist at 
the Walter Reed Medical Center. There are allegations of 
communications with other extremists; a Web posting advocating 
suicide bombing; possibly him, an individual named Major Hasan 
wrote a post on the Web site that favorably compared an 
American soldier jumping on a grenade to save the lives of his 
fellow soldiers to suicide bombers; extremist activities at 
Walter Reed; and that Major Hasan antagonized some students and 
faculty by espousing what they perceived to me extremist 
Islamist views; and, of course, the most notable is his 
activities while working at Walter Reed was a medical 
presentation to fellow students where he included statements 
such as, ``We love death more than you love life,'' and 
``Fighting to establish an Islamic state to please God, even by 
force, is condoned by Islam.''
    General Keane, the military is most sensitive of any 
organization I know to any taint or allegation or impression of 
being discriminatory, which is appropriate. Do you think that 
political correctness may have played some role in the fact 
that these dots were not connected?
    General Keane. Yes, absolutely. And also I think a factor 
here is Major Hasan's position as an officer and also his 
position as a psychiatrist contributed to that because of the 
special category in the military I think someone who is 
operating as a clinician every day treating patients is in. It 
is an individual activity versus a group activity, which 
provides considerably more supervision in squads, platoons, 
companies, and the like inside our units. So there is no doubt 
in my mind that was operating here.
    But, in fairness to many of the people who are associating 
with him, based on what preliminary research I have done and I 
think what the Committee is doing, I think we are going to find 
very clearly that we do not have specific guidelines on dealing 
with jihadist extremism in terms of the obligations of the 
members of the military to identify it, report it, and what 
actions to take and what constitutes jihadist extremism itself.
    So you take some of this burden away from people by having 
those guidelines, and when you have those guidelines in place, 
you are clearly saying to the institution that this is 
important to us, we are not going to tolerate this kind of 
behavior, and we want to identify it immediately to try to curb 
the behavior through counseling and rehabilitation, and, if 
necessary, separate that individual from the service if it 
cannot be curbed.
    Senator McCain. I have talked to military officers who have 
stated that they, at least up until now, have had a significant 
reluctance to pursue what may be these indications because of 
this political correctness environment. Have you heard the 
same?
    General Keane. Well, I know it exists, no doubt about it, 
and what I am trying to say is that the way to deal with that--
it should not have to be an act of moral courage on behalf of a 
soldier to report behavior that we should not be tolerating 
inside our military organizations. It should be an obligation.
    The way to make that an obligation is provide very specific 
guidelines through the chain of command as to what their duties 
are in regards to this issue. That begins to take this issue 
off the table because the institution is speaking clearly in 
terms of what its expectations are and what it will tolerate 
and what it will not tolerate.
    Senator McCain. And perhaps err on the side of caution 
instead of erring on the side of correctness.
    General Keane. Yes, absolutely, Senator.
    Senator McCain. Ms. Townsend.
    Ms. Townsend. Well, as I mentioned in my testimony, I have 
the same concern that you have articulated in the U.S. military 
and the law enforcement community. We have invested lots of 
time and effort in the post-September 11, 2001, world to ensure 
that people understand we are going to provide people First 
Amendment protections in their freedom and practice of 
religion.
    I do fear that because this was a senior member of the 
uniformed military, there was a reluctance to proceed, and I 
think that this is an area that the Committee should and ought 
to investigate and uncover in terms of our law enforcement 
system that we cannot allow them to be reluctant to follow the 
facts just because they are afraid that they are going to be 
criticized for not being politically correct.
    Senator McCain. Mr. Silber.
    Mr. Silber. In the NYPD, if we had a concern like that, it 
would be forwarded up the chain of command as well as to the 
Department of Internal Affairs for investigation.
    Senator McCain. Mr. Zarate.
    Mr. Zarate. Senator, given my experience with the FBI, I do 
not think there would have been a sense of political 
correctness with respect to the ethnicity or religious beliefs 
of the individual. This is my assessment based on what I know. 
I think his status in the military, the fact that he was a 
medical doctor, the fact that he was engaged in research with 
respect to potential conflicts in the minds of Muslim soldiers, 
that may have affected the judgment of the FBI in this context 
and much less a question of his ethnicity or beliefs.
    Senator McCain. Well, if they believe that those kinds of 
e-mails that they detected were a part of research which 
advocates extreme Muslim activity, at least I would find out 
what kind of research is going on. Frankly, I have never heard 
of such research. So I am kind of skeptical about your answer. 
Go ahead, Mr. Jenkins.
    Mr. Jenkins. I do not think religion is an acceptable basis 
for any group being stigmatized, but religion provides no 
shield against any legitimate inquiry and therefore should not 
have inhibited an appropriate inquiry.
    Let me, however, underscore a point made by General Keane 
which I think is important here. My military experience is in 
combat units. In a combat unit, actions like Major Hasan's, 
attitudes like his, would be picked up much faster than in the 
individual professional activity of a psychiatrist even though 
in military service.
    Senator McCain. I thank you. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCain. An important 
exchange.
    I want to add just this. After the Fort Hood massacre, I 
received a call from a friend of mine who is a high-ranking 
officer in the Army, just to confirm what you said, and also 
basically to go to your point, that we have great respect for 
diversity of religion, but it should not be a cover for bad 
behavior. And this officer said to me that, ``If the Army and 
the rest of the services make clear that Islamist extremist 
behavior is not tolerated and you have an obligation to report 
it right away, you will be doing an enormous favor to all the 
other Muslim-American soldiers who serve under me because 
without that,'' this officer said to me, ``I worry that the 
non-Muslim soldiers are going to have hesitation to have what 
we have to have in combat, which is blind trust in one 
another.''
    I think it is a really important point, that insofar as we 
focus on the extremists, we are actually going to be doing a 
favor to everybody else of that particular religion who is in 
the military and helping military cohesion.
    Senator Ensign.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Thank you, Mr. Chairman. I think this 
hearing has been important for a lot of different reasons, and 
some of the issues you just articulated I think are definitely 
some of them.
    This whole idea of political correctness, whether that is 
political correctness due to an officer, whether that is 
political correctness of somebody's particular religion, I am 
curious, Mr. Silber, when you said we would refer up the chain 
of command, what if that chain of command--in other words, what 
if you had a high-ranking officer in the New York City Police 
Department, you discovered that person happened to be of the 
Islamic faith and was having contacts with one of these radical 
clerics, one of these imams over in Yemen, what would be done 
at that point in the New York City Police Department?
    Mr. Silber. If no action was taken, I would then take it up 
to the deputy commissioner level.
    Senator Ensign. Ms. Townsend, you talked about the 
obligation to share with the Joint Terrorism Task Force, and I 
think that is important. Does that happen with the military 
today? In other words, would they share that information with 
the military? Or is it just other law enforcement agencies?
    Ms. Townsend. What happens is on the Joint Terrorism Task 
Force, the Defense Criminal Investigative Service (DCIS), sits 
on it. And in this instance, my understanding is the 
information came to the JTTF, was shared with the Defense 
Criminal Investigative Service, but the memorandum of 
understanding (MOU), as well as perhaps FISA restrictions, 
would have prevented the DCIS agent from sharing it back to the 
Army and DOD, the Pentagon, without permission. Depending on 
where the information came from, they would have----
    Senator Ensign. But you said that permission is pretty easy 
to get.
    Ms. Townsend. They can get it. That is right. And what this 
sort of suggests to me is that the assessment on the JTTF was 
that they did not view it as a close call. They looked at these 
communications. They looked at, in my understanding, the 
personnel file. There was no derogatory information. And so 
they saw no reason.
    Now, I think over time, as more information comes out, the 
Committee will be in a better position to judge whether or not 
that was the right judgment. But mechanisms certainly did exist 
if there was a desire on the part of the JTTF or the Defense 
Criminal Investigative Service to share that back with DOD.
    Senator Ensign. One of the concerns that I see here is, we 
heard about the silos pre-September 11, 2001, and some of the 
statements that he allegedly has made, talking about, in one 
instance when Colonel Terry Lee said that he heard him say that 
maybe people should strap bombs on themselves and go to Times 
Square in New York, the contacts with the imam. Are those silos 
still in place where you hear this over here or you hear 
something else going on where that information is not being 
shared? Do those still exist?
    Ms. Townsend. To be fair, I think tremendous progress has 
been made in terms of information sharing, and I think when we 
see that there was collection and it came into the JTTF, that 
is an indication that we have made a lot of progress in that 
area.
    Based on what I have read publicly--because, of course, we 
do not have all the facts yet--it is not clear to me that the 
information from Walter Reed and his colleagues that would have 
been in the personnel system ever made its way into the 
personnel file. And if that is the case, that means the JTTF 
and the DCIS agent, when they had the communications and would 
have looked at the bare record of the personnel file, if there 
was no derogatory information in it, they were at a 
disadvantage. And we have to fix that system. If there was 
information inside the military, it needed to make its way into 
a format where it could be shared.
    Senator Ensign. I see. General Keane, I think you have 
brought up some of the most important testimony today as far as 
fixing this going forward, and it sounds like this obviously 
should have been in place, as very simple as what the New York 
City Police Department has as far as their policies and 
procedures. Going forward, I think what Senator Lieberman 
talked about, if these policies and procedures are in place, it 
does take pressure off somebody in the future, if they know 
they are obligated to report. Let us say that you have somebody 
who is a Muslim who feels that, ``Gee, should I report this or 
not? Maybe I am going to be stigmatized. I do not know whether 
I should report it.'' Now they have an obligation. That 
actually, I agree that protects them, and so I think that was 
very important.
    I want to go back to something, Ms. Townsend, you said that 
is a little bit disturbing in the general Islamic community, 
when you say there are moderate Muslims out there, and they 
feel like they would be stigmatized, they would be kind of set 
apart. It would seem to me, getting back to what Mr. Zarate 
said as far as the obligation of the Muslim-American community, 
they have an obligation to stigmatize, to separate those who 
are radical, so that somebody who is moderate in their views 
feels like they can come out and condemn. That would seem to me 
the overarching obligation of the Muslim-American community, to 
not let the radicals control their community in such a way that 
if you feel like you are being a loyal American, you are 
actually disloyal to the Muslim community out there.
    Ms. Townsend. Senator, you and I do not disagree, I do not 
think.
    Senator Ensign. And that you were just reporting the facts.
    Ms. Townsend. That is exactly right. I am simply telling 
you that, based on my experience, this is a continuing 
challenge to law enforcement community, that is, to encourage 
moderate Muslims to speak out. And I suppose my only suggestion 
is we ought to take some heart and some reassurance in the fact 
that there are many patriotic, law-abiding Muslim-Americans who 
actually, while they are not speaking out publicly, do what 
they can to stigmatize those who have radical extremist 
beliefs, bring them to the attention of local and Federal law 
enforcement, and weed them out of their communities before they 
can do harm. And for that, we are very grateful.
    Senator Ensign. Well, I think this panel, all of you, have 
had some excellent testimony today, have given us some 
direction, but probably have given others in the military even 
some further direction to go as well. And we need to renew some 
of the tools, obviously, for law enforcement and maybe make 
some of the tweaks that you all have suggested to make that 
information sharing a little less cumbersome so it will be done 
a lot more as well. So I thank all the witnesses for your 
testimony today.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Ensign. Thanks very 
much. And, there are obviously lessons here that relate to this 
particular case for behavior of employees of the Department of 
the Army, the U.S. military generally, and the Department of 
Justice. But there are broader implications for society and 
particularly in these lone-wolf cases, which are the hardest, 
as our witnesses have said. When people hear people saying 
things that seem extreme, respecting First Amendment rights, 
you have to begin to reach out and see if you can stop somebody 
before they do something very harmful.
    Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    There is already a great deal in the public record about 
Major Hasan that raises concerns about the adequacy of our law 
enforcement, about whether the military acted on the 
information that was not only available to it, but was, in 
fact, noticed and commented upon in some of Major Hasan's 
Department of Defense records.
    The Senate Armed Services Committee's investigation in this 
matter is going to focus on the military and any connections of 
JTTF to the military. Our investigation is going to be carried 
out in a way that is consistent with the essential need to 
avoid jeopardizing the criminal investigation into this attack 
by Major Hasan. And I think this Committee has been careful and 
I want to commend the Committee and the witnesses who have been 
careful not to say something--particularly you, Mr. Silber, to 
avoid saying anything which could jeopardize the criminal 
investigation and the prosecution of this man. It is essential 
that we both investigate, correct where it is necessary, and 
hold accountable where it is necessary, but also that we 
prosecute without running into the defense that there has been 
a prejudgment by people who have either some kind of command 
authority or anyone else that is in law enforcement.
    Ms. Townsend, your testimony, it seems to me, is right on 
point when you talk about the JTTF being encumbered or 
apparently being encumbered by some of its procedures. The 
memorandum of agreement--it looks like a contract, small 
print--between itself and the Department of Defense is 16 pages 
long.
    Ms. Townsend. That is right.
    Senator Levin. It took 3 months for three people to sign 
that agreement. The way it was characterized just in April 
before a House committee by the Los Angeles County sheriff was 
that a local task force officer may not share information with 
his or her home agency without demonstrating the receiving 
entity's specific ``need and right to know.'' That is not 
factual, I do not believe. You would agree, Ms. Townsend, that 
is not factual. But that is what a sheriff believed.
    Ms. Townsend. Right.
    Senator Levin. And I am afraid there is too much of that 
feeling of restriction as to the reaching out potential for 
information that is in the JTTF files.
    There is also a problem, it seems to me, from what we can 
tell in terms of the JTTF piece here, with the follow-up either 
into other agencies' records and back into JTTF, but perhaps 
within JTTF itself when subsequent information comes to its 
attention, in particular. And I am wondering if you can quickly 
tell us, Ms. Townsend, whether or not you know that a JTTF, if 
it gets information in year one, has the ability--and, in fact, 
does--when it gets information in year four, to connect that 
back to the information that it had. Could you give us a really 
quick answer if you know the answer to that?
    Ms. Townsend. I think it is fair to say the possibility 
exists that they could put that together because there are 
records and communications involved, so it is possible and that 
information is indexed, and I think you have to look on an 
individual basis.
    Senator Levin. Because there is some question as to 
whether, in fact, that did occur in this case.
    Now, a number of witnesses have said that the fact of these 
investigations and the need for corrective actions does not 
impugn and should not impugn the contributions of the loyal 
Muslim-Americans to our military and to our society. I think 
you all have said that, as have the Chairman, the Ranking 
Member, and others on this panel. The diversity of our Nation's 
military and of our Nation as a whole has been a great 
strength. It has been one of our most effective weapons against 
the fanatics of any religion who claim the right to murder 
those who hold different beliefs.
    Mr. Zarate, you quoted a statement which I think is a very 
significant quote of a Muslim leader here both in terms of the 
responsibility of the Muslim community, and I share that. But 
you also point out that as a counternarrative, there is no more 
powerful weapon than the promise and the reality of the 
American dream with the opportunity for Muslim-Americans to be 
integrated, as have all other immigrants, into the American 
society.
    I want to ask you to comment on a statement of Reverend Pat 
Robertson, who recently and very publicly asserted the 
following: That Islam is ``not a religion but a violent 
political system bent on the overthrow of the governments of 
the world and world domination.'' And as to whether or not a 
statement such as that by a well-known American cleric makes it 
more difficult for moderate Muslims to make the argument and, 
indeed, whether that kind of statement really helps the enemy 
to radicalize people who would then commit terrorist acts 
against us. Do you have a reaction to that comment, Mr. Zarate?
    Mr. Zarate. Senator, I think I will just stand by what I 
said, which is the division of our society would be detrimental 
and would be the worst manifestation and effects of this 
violent Islamist extremist ideology. Islam is one of the great 
religions of the world, and I think at the end of the day it is 
going to be Muslim-Americans who help us to defeat this violent 
brand of it.
    Senator Levin. But I want to press you on this question, 
because I think it is important that it be contested and that 
it be opposed for a major religious leader in this country to 
label Islam--Islam as a whole--as a violent political system 
bent on the overthrow of governments, it seems to me plays 
right into the hands of the extremists and the fanatics. It 
gives them the propaganda tool that they look for, and I would 
like to know whether or not you believe that is the case.
    Mr. Zarate. I do not think it is helpful, and I do think it 
plays into the radicals' ideology and narrative of the West, 
and the United States, in particular being at war with Islam. 
And so I do not think those kinds of statements are helpful.
    Senator Levin. Does anyone else want to comment on this 
statement on the panel as to whether or not you believe that 
kind of statement is----
    General Keane. Yes, I would comment on it, Senator. I think 
it is an outrageous, irresponsible statement by a religious 
leader, it is full of discrimination, it is offensive to 
Muslims in general, and it no doubt inflames the situation and 
makes no contribution to what we are trying to achieve, and 
that is, a stable situation.
    Senator Levin. Does anybody else want to comment on that? 
Ms. Townsend.
    Ms. Townsend. Senator, I agree completely with General 
Keane. I think it is offensive, it is ignorant, it lacks a 
basis in fact and knowledge. There is a very small extreme wing 
not only, by the way, of Islam, but there are extreme wings of 
other religions which are found to be deeply offensive to the 
vast majority of the believers of those religions, just as 
fundamental extremism is to Islam. The vast majority of people, 
Muslim or not, ought to take grave offense at this 
irresponsible statement and reject it.
    Senator Levin. Anybody else?
    [No response.]
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Levin. Thanks very 
much. Thanks for raising that last question. Of course, I agree 
not only was it outrageous, but as you said, it hurts our 
efforts to succeed in this conflict.
    The other Senators who came earlier had to leave. If the 
witnesses can stand it, I think Senator Collins and I will do 
one more quick round.
    Mr. Silber, I wanted to ask you some hypotheticals, if you 
would. If the New York Police Department was doing court-
ordered surveillance of somebody in the city who was known to 
be involved in Islamist extremist activities, and as part of 
that surveillance came across a member of the NYPD 
communicating with that individual, what would the reaction of 
the Department be. Let us assume first that the communications 
were of a religious nature, not particularly inflammatory but, 
still, communicating with an individual who is known as an 
extremist. What would the reaction of the Department be?
    Mr. Silber. I think the Department would look at the nature 
of the communications because in the nature of the 
communications would give us an insight as to what the purpose 
of this interaction is. Obviously, any type of interaction 
between a member of the service and individuals who are being 
investigated just across the board would be something of 
concern and would get senior-level attention within the 
Department.
    Chairman Lieberman. Yes. Right, the simple communication 
with somebody who had a record of being involved in association 
with terrorism or terrorists would raise concerns and raise 
this up to a higher level within the NYPD.
    Mr. Silber. Yes, Senator. I think the two issues are the 
pedigree of the individual who has been contacted as well as 
the content of the communication.
    Chairman Lieberman. So I assume that if the content took a 
more extreme direction--in other words, let us say an officer 
in the NYPD was found communicating with this subject of an 
NYPD investigation and was expressing extremist views, and 
perhaps even suggesting the justification for violent actions 
in pursuit of extremist views, then I presume that would raise 
real alarm bells.
    Mr. Silber. Yes, and as I stated earlier, Senator, I think 
the process would be to reach out to our Internal Affairs 
Bureau to move that up the chain of command so that got the 
appropriate level of attention.
    Chairman Lieberman. Well, it would depend, I assume, what 
that would mean. In other words, I presume you would watch that 
person more carefully or take more aggressive action.
    Mr. Silber. Yes, I think we would need to understand, what 
that dot, in a sense, means in context. We would look at the 
radicalization process and say, is that an isolated interaction 
or does that fit into a larger continuum.
    Chairman Lieberman. Right. Now let us step back, and you 
have developed from your experience the four phases of 
radicalization. And to the extent you are able, based on the 
public record, I wanted to ask you if you would apply that 
framework to what you know about Major Hasan.
    Mr. Silber. Sure. Senator, I think Mr. Jenkins made a good 
point that when you are dealing with a lone wolf, an individual 
actor, to some degree they really are at the margins of the 
process that we have looked at and others have looked at. And, 
in fact, our study primarily looked at groups of individuals.
    That said, we have looked at some of the preliminary 
information out there, and it is suggestive that he went 
through some type of radicalization process. I think the key 
questions to ask are look at his behaviors and see how those 
correlate through some of the phases and through some of the 
indicators that we have identified in the model.
    Chairman Lieberman. From what you know--I was interested in 
the concept you introduced of a virtual spiritual sanctioner--
that is, somebody operating over the Internet. Incidentally, as 
I understand it, someone like al-Awlaki whom we have been 
talking about operates a public Web site with quite open 
expressions of exhortation to jihadist behavior. In other 
words, you do not have to have an authorized surveillance of 
his e-mails--and there are a lot of others like this--to 
conclude that this guy is at war and urging others to get at 
war. But I wanted to ask you whether from what you have heard 
of al-Awlaki, does that seem to fit into your vision of a 
virtual spiritual sanctioner?
    Mr. Silber. I think based on his pedigree going back to 
September 11, 2001, and also looking at what he has done more 
recently in terms of his Web site, promoting in English 
jihadist views, he is clearly an individual of concern. So I 
think the next question we would ask is: What was the nature of 
the relationship between him and another individual? The 
spiritual sanctioner functionally moves somebody down that 
pathway, and that really is the key question. Functionally, 
what was the relationship between him and another individual? 
Did he move that person down the pathway, encouraging him to 
move from, let us say, self-identification to indoctrination, 
or indoctrination to jihadization? And that I think is a key 
issue.
    Chairman Lieberman. Yes, it struck me also that we have to 
go into these e-mails. They are classified, of course, but 
there has been some description--and I cannot say whether it is 
based on fact or not--that this was part of Major Hasan's 
research, his reported communication with the subject of this 
investigation. But the choice of this recipient of e-mails says 
a lot, I think, about what Major Hasan was looking for. In 
other words, there are a lot of Muslim imams, authorities, and 
scholars that he might have communicated with as part of 
research or even to ask personal religious questions. Doesn't 
it say something about him? And what I am getting at is that he 
may have been looking for spiritual sanctioning of what he is 
accused of ultimately doing.
    Mr. Silber. Yes, Senator, I agree wholeheartedly with that 
view. I think who you reach out to for theological or doctrinal 
questions does give some indication to some degree to what 
message you are looking for.
    Chairman Lieberman. Just a final quick question. Mr. Zarate 
raises a question in his testimony about whether the U.S. 
military is doing enough to protect its bases in the context of 
the clear appeals by jihadist leaders to attack our military in 
their bases and now the evidence in the United States of this 
string of plots, fortunately most of them not successful, but 
tragically, the one in Little Rock and Fort Hood, successful.
    General Keane, do you have any response to that? Is there 
more that we should be doing to protect the security of the 
bases generally, even in the United States, from terrorist 
attack?
    General Keane. Well, I think we dramatically changed the 
security on our bases post-September 11, 2001, for all the 
obvious reasons, and I am confident that the military goes 
through continuous reviews to ensure that force protection is 
of the rigor it should be.
    The Fort Hood incident is so dramatically different because 
it comes from within as opposed from without, and in that 
problem lie the issues that we have discussed here. It is more 
up to the members of that organization within to deal with that 
issue than it is to guard at the gate or others who are dealing 
with force protection issues as associated with a military 
base. And certainly the other thing that goes hand in glove 
with this is cooperation with law enforcement agencies and 
intelligence services, in terms of stopping these incidents 
before they actually take place--and that is crucial and that 
is what has prevented certainly most of these incidents from 
taking place--is the tremendous work that law enforcement is 
doing in cooperation with other agencies. And that certainly 
has got to continue, and if we can improve the process, as 
Frances Townsend is suggesting, that will add to it as well.
    Chairman Lieberman. Well said. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Jenkins, we hope that one of the results of our 
investigation will be a new pamphlet on extremist activities 
that incorporates the lessons of this case. That still begs the 
question of what should the military do when it identifies a 
soldier who is embracing radical views, extremist views. We 
know, due to the good work of the NYPD, about the four stages 
of radicalization, and it is possible that intervention at an 
early stage could make a difference and could lead to something 
short of discharging the individual from the service.
    In 2007, when you testified before Congress about jihadist 
radicalization and recruitment, you talked about the 
possibility of countermessaging. I would like to ask you today 
whether you see opportunities for the Army to intervene at 
stage one of the radicalization process to try to help some 
members of our military get back on track.
    Mr. Jenkins. I think it is important that we look at this 
in the context of military service. I mean, to be quite honest 
with you, Senator, when I was in the military, I did not know, 
nor did I care what the religion was of the members of my unit. 
I dealt with them as individuals. What it said on their dog 
tags about their preferences for method of burial was something 
that did not concern me.
    I think it is entirely appropriate, when an individual is 
displaying behavior that is inappropriate within the context of 
the military unit or is demonstrating behavior that is contrary 
to morale or suggests a destructive or a self-destructive path, 
that there be an appropriate intervention. And as I say, in 
many cases in a combat unit, that will be picked up fairly 
quickly, and there will be that appropriate intervention.
    I think what we have to do is empower individuals so that 
they need not be shy about this--our understandable concerns 
about free speech, about protecting civil liberties, should not 
cause us to hesitate where there is clearly manifest behavior 
that is inappropriate, wrong, contrary, and so on.
    In many cases, I think there is intervention. We know about 
radicalization only from those terrorists who have made it all 
the way through a terrorist act or an arrest. We do not have 
information about all of those who drop out along the way, and 
there are a lot who do drop out along the way or are counseled 
along the way.
    It will be interesting to know about the radicalization in 
the case of Major Hasan. He has been subjected to extraordinary 
scrutiny in the last couple of weeks because of this event. 
There are literally thousands of reporters who are picking up 
every statement that he made, every piece. That right now is 
chronologically flat, and one would really like to see, in 
order to compare it to what we know here as researchers, a 
chronology constructed here. When was he communicating with 
this imam? When was he making these statements? What were his 
actions over time? Can we see a trajectory and then at that 
point identify where there might have been a useful 
intervention?
    Senator Collins. Thank you.
    Mr. Chairman, let me just end my comments today by going 
back to the 9/11 Commission Report because it does appear to me 
that we did have--it is too early to say for sure, but that we 
did have a failure to share critical information, a failure to 
ask questions, to initiate an investigation, or at least an 
inquiry or an interview, and that the results were tragic, 
horrible consequences: A terrorist attack.
    The 9/11 Commission reminds us--and I want to read from the 
report. ``In the 9/11 story, for example, we sometimes see 
examples of information that could be accessed--like the 
undistributed NSA information that would have helped identify 
Nawaf al-Hazmi in January 2000. But someone had to ask for it. 
In that case, no one did. Or, as in the episodes we describe in 
chapter 8, the information is distributed, but in a 
compartmented channel. Or the information is available, and 
someone does ask, but it cannot be shared.
    ``What all these stories have in common is a system that 
requires a demonstrated `need to know' before sharing. This 
approach assumes it is possible to know, in advance, who will 
need to use the information.''
    The point is that information must be shared with those 
that have the ability to understand the full context and take 
action. If you look at Major Hasan's presentations--there were 
two of them that I am aware of; one I have looked completely 
through--there are warning signs and red flags galore. If you 
look at his contacts with the radical imam, without revealing 
what those specific e-mails said, just the fact that he was 
seeking advice and communicating with a known al-Qaeda 
associate, when you start to put together all of the pieces of 
information, it reminds me very much of the siloed information 
that was available throughout the Federal Government in 
different agencies prior to the attacks on our country on 
September 11, 2001. And our challenge is to make sure that we 
have not allowed new silos to build up, that the JTTFs, which 
have been tremendous and have had a lot of successes, do not 
inadvertently become another silo where information cannot be 
shared without jumping through too many hoops. And that is our 
challenge, as we learn more through our investigation, to 
identify legal barriers, administrative impediments that may 
have blocked the sharing of information in this case, and to 
identify in our military whether we need better systems to 
encourage reporting, as the General put it so well, that it is 
no longer a moral act of courage but, rather, an obligation to 
report disturbing information.
    That is what our investigation is aimed at, and, again, I 
want to thank the Chairman for initiating this very important 
investigation and to express my appreciation to all of you 
today for your forthright, candid, and expert testimony.
    Thank you.
    Chairman Lieberman. Thank you, Senator Collins. It, as 
always, is a pleasure to work with you. We are going to conduct 
this investigation in the same thorough and bipartisan/
nonpartisan way we have done everything on this Committee, 
including some controversial and sensitive investigations into 
Federal Government behavior prior to September 11, 2001, and 
also during Hurricane Katrina. I think you stated well what we 
have accomplished today.
    I cannot thank the five witnesses enough for their 
testimony. I cannot imagine a better way to inform our 
investigation. You have brought your experience and 
considerable expertise to the table. You have helped us begin 
to understand how to best approach this. You have made some 
specific suggestions not just about questions to pursue in our 
investigation, but about reforms to initiate as a result of 
what we already know about Major Hasan and the murders that 
occurred at Fort Hood.
    So I honestly cannot thank you enough, and I would like to 
take the liberty of keeping in touch with you as this 
investigation goes on. I also would invite you not to hesitate 
to initiate to us as you watch this occurring.
    We are going to continue the investigation now. I hope we 
can conduct the investigation in the cooperative way that we 
have begun with the Executive Branch. It will inevitably now 
take a less public turn with a lot of interviews and reviewing 
of documents, and we will reconvene in public session when and 
if we think it is appropriate and constructive to do so, and 
then ultimately to issue a report and recommendations.
    But you have done a real service not just to the Committee 
but I honestly believe to the homeland security of the people 
of our country. I thank you very much.
    The record will stay open for 15 days for additional 
statements and questions.
    The hearing is adjourned.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6145.001

[GRAPHIC] [TIFF OMITTED] T6145.002

[GRAPHIC] [TIFF OMITTED] T6145.003

[GRAPHIC] [TIFF OMITTED] T6145.004

[GRAPHIC] [TIFF OMITTED] T6145.005

[GRAPHIC] [TIFF OMITTED] T6145.006

[GRAPHIC] [TIFF OMITTED] T6145.007

[GRAPHIC] [TIFF OMITTED] T6145.008

[GRAPHIC] [TIFF OMITTED] T6145.009

[GRAPHIC] [TIFF OMITTED] T6145.010

[GRAPHIC] [TIFF OMITTED] T6145.011

[GRAPHIC] [TIFF OMITTED] T6145.012

[GRAPHIC] [TIFF OMITTED] T6145.013

[GRAPHIC] [TIFF OMITTED] T6145.014

[GRAPHIC] [TIFF OMITTED] T6145.015

[GRAPHIC] [TIFF OMITTED] T6145.016

[GRAPHIC] [TIFF OMITTED] T6145.017

[GRAPHIC] [TIFF OMITTED] T6145.018

[GRAPHIC] [TIFF OMITTED] T6145.019

[GRAPHIC] [TIFF OMITTED] T6145.020

[GRAPHIC] [TIFF OMITTED] T6145.021

[GRAPHIC] [TIFF OMITTED] T6145.022

[GRAPHIC] [TIFF OMITTED] T6145.023

[GRAPHIC] [TIFF OMITTED] T6145.024

[GRAPHIC] [TIFF OMITTED] T6145.025

[GRAPHIC] [TIFF OMITTED] T6145.026

[GRAPHIC] [TIFF OMITTED] T6145.027

[GRAPHIC] [TIFF OMITTED] T6145.028

[GRAPHIC] [TIFF OMITTED] T6145.029

[GRAPHIC] [TIFF OMITTED] T6145.030

[GRAPHIC] [TIFF OMITTED] T6145.031

[GRAPHIC] [TIFF OMITTED] T6145.032

[GRAPHIC] [TIFF OMITTED] T6145.033

[GRAPHIC] [TIFF OMITTED] T6145.034

[GRAPHIC] [TIFF OMITTED] T6145.035

[GRAPHIC] [TIFF OMITTED] T6145.036

[GRAPHIC] [TIFF OMITTED] T6145.037

[GRAPHIC] [TIFF OMITTED] T6145.038

[GRAPHIC] [TIFF OMITTED] T6145.039

[GRAPHIC] [TIFF OMITTED] T6145.040

[GRAPHIC] [TIFF OMITTED] T6145.041

[GRAPHIC] [TIFF OMITTED] T6145.042

[GRAPHIC] [TIFF OMITTED] T6145.043

[GRAPHIC] [TIFF OMITTED] T6145.044

[GRAPHIC] [TIFF OMITTED] T6145.045

[GRAPHIC] [TIFF OMITTED] T6145.046

[GRAPHIC] [TIFF OMITTED] T6145.047

[GRAPHIC] [TIFF OMITTED] T6145.048

[GRAPHIC] [TIFF OMITTED] T6145.049

[GRAPHIC] [TIFF OMITTED] T6145.050

[GRAPHIC] [TIFF OMITTED] T6145.051

[GRAPHIC] [TIFF OMITTED] T6145.052

[GRAPHIC] [TIFF OMITTED] T6145.053

[GRAPHIC] [TIFF OMITTED] T6145.054

[GRAPHIC] [TIFF OMITTED] T6145.055

[GRAPHIC] [TIFF OMITTED] T6145.056

[GRAPHIC] [TIFF OMITTED] T6145.057

[GRAPHIC] [TIFF OMITTED] T6145.058

[GRAPHIC] [TIFF OMITTED] T6145.059

[GRAPHIC] [TIFF OMITTED] T6145.060

[GRAPHIC] [TIFF OMITTED] T6145.061

[GRAPHIC] [TIFF OMITTED] T6145.062

[GRAPHIC] [TIFF OMITTED] T6145.063

[GRAPHIC] [TIFF OMITTED] T6145.064

[GRAPHIC] [TIFF OMITTED] T6145.065

[GRAPHIC] [TIFF OMITTED] T6145.066

[GRAPHIC] [TIFF OMITTED] T6145.067

[GRAPHIC] [TIFF OMITTED] T6145.068

[GRAPHIC] [TIFF OMITTED] T6145.069

[GRAPHIC] [TIFF OMITTED] T6145.070

[GRAPHIC] [TIFF OMITTED] T6145.071

[GRAPHIC] [TIFF OMITTED] T6145.072

[GRAPHIC] [TIFF OMITTED] T6145.073

[GRAPHIC] [TIFF OMITTED] T6145.074

[GRAPHIC] [TIFF OMITTED] T6145.075

[GRAPHIC] [TIFF OMITTED] T6145.076

[GRAPHIC] [TIFF OMITTED] T6145.077

[GRAPHIC] [TIFF OMITTED] T6145.078

[GRAPHIC] [TIFF OMITTED] T6145.079

[GRAPHIC] [TIFF OMITTED] T6145.080

[GRAPHIC] [TIFF OMITTED] T6145.081

[GRAPHIC] [TIFF OMITTED] T6145.082

[GRAPHIC] [TIFF OMITTED] T6145.083

[GRAPHIC] [TIFF OMITTED] T6145.084

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
